<html>
<title> - FAST ACT IMPLEMENTATION: MOTOR CARRIER PROVISIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




           FAST ACT IMPLEMENTATION: MOTOR CARRIER PROVISIONS

=======================================================================

                                (115-45)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-665 PDF                 WASHINGTON : 2019  






             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York               STACEY E. PLASKETT, Virgin Islands
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
MIKE GALLAGHER, Wisconsin

                                  (ii)

  


                  Subcommittee on Highways and Transit

                     SAM GRAVES, Missouri, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee       Columbia
FRANK A. LoBIONDO, New Jersey        STEVE COHEN, Tennessee
DUNCAN HUNTER, California            ALBIO SIRES, New Jersey
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICHARD M. NOLAN, Minnesota
LOU BARLETTA, Pennsylvania           DINA TITUS, Nevada
BOB GIBBS, Ohio                      SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            ALAN S. LOWENTHAL, California
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
ROB WOODALL, Georgia                 MARK DeSAULNIER, California
JOHN KATKO, New York                 EDDIE BERNICE JOHNSON, Texas
BRIAN BABIN, Texas                   MICHAEL E. CAPUANO, Massachusetts
GARRET GRAVES, Louisiana             GRACE F. NAPOLITANO, California
BARBARA COMSTOCK, Virginia           DANIEL LIPINSKI, Illinois
DAVID ROUZER, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE BOST, Illinois                  Georgia
DOUG LaMALFA, California             LOIS FRANKEL, Florida
BRUCE WESTERMAN, Arkansas            CHERI BUSTOS, Illinois
LLOYD SMUCKER, Pennsylvania, Vice    FREDERICA S. WILSON, Florida
Chair                                DONALD M. PAYNE, Jr., New Jersey
PAUL MITCHELL, Michigan              PETER A. DeFAZIO, Oregon (Ex 
JOHN J. FASO, New York               Officio)
A. DREW FERGUSON IV, Georgia
MIKE GALLAGHER, Wisconsin
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY
                                Panel 1

Hon. Raymond Martinez, Administrator, Federal Motor Carrier 
  Safety Administration..........................................     6

                                Panel 2

Dale N. Krapf, Chairman, Krapf Group, Inc........................    31
Mike VanMaanen, Owner, Eastern Missouri Commission Company, on 
  behalf of the Livestock Marketing Association..................    31
Captain Christopher J. Turner, President, Commercial Vehicle 
  Safety Alliance................................................    31
Jennifer Tierney, Board Member, Citizens for Reliable and Safe 
  Highways, on behalf of the Truck Safety Coalition..............    31

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Raymond Martinez............................................    45
Dale N. Krapf....................................................    58
Mike VanMaanen...................................................    75
Captain Christopher J. Turner....................................    82
Jennifer Tierney.................................................    92

                       SUBMISSIONS FOR THE RECORD

Hon. Raymond Martinez, Administrator, Federal Motor Carrier 
  Safety Administration, responses to questions for the record 
  from the following Representatives:

    Hon. Mark Meadows of North Carolina..........................    49
    Hon. Alan S. Lowenthal of California.........................    53
    Hon. Scott Perry of Pennsylvania.............................    54
    Hon. Brenda L. Lawrence of Michigan..........................    55
    Hon. Brian Babin of Texas....................................    56
Dale N. Krapf, Chairman, Krapf Group, Inc., submission of the 
  following:

    Responses to questions for the record from Hon. Scott Perry 
      of Pennsylvania............................................    70
    Clarification of hearing remarks.............................    73
Written statement of Catherine Chase, President, Advocates for 
  Highway and Auto Safety, submitted for the record by Hon. 
  Eleanor Holmes Norton of the District of Columbia..............   101
Letter of November 9, 2017, from Hon. Brian Babin of Texas to 
  President Donald J. Trump, submitted for the record by Hon. 
  Babin..........................................................   132
Hon. Steve Cohen of Tennessee, submission of the following:

    Report entitled ``A Brief Look at the Far Horizon: An 
      Exploration of What's to Come for Trucking,'' by The 
      Technology & Maintenance Council's Future Truck Committee 
      Far Horizons Subcommittee, November 2002...................   135
    Report entitled ``The Domain of Truck and Bus Safety 
      Research,'' Transportation Research Circular No. E-C117, by 
      the Transportation Research Board of the National 
      Academies, May 2007 \1\

----------
\1\ This 151-page report can be found online at the Transportation 
Research Board's website at http://onlinepubs.trb.org/onlinepubs/
circulars/ec117.pdf.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
           FAST ACT IMPLEMENTATION: MOTOR CARRIER PROVISIONS

                              ----------                              


                         TUESDAY, MAY 22, 2018

                 1House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2167, Rayburn House Office Building, Hon. Sam Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Missouri. The subcommittee will come to 
order.
    Without objection, the Chair is authorized to declare a 
recess at any point.
    And I want to say good morning to everybody and welcome all 
of our witnesses for being here today. I look forward to having 
a very productive discussion about the various motor carrier 
issues facing the industry.
    And I am very happy to welcome Administrator Ray Martinez 
to the committee for the first time. I know all Members on both 
sides are very interested to hear from Mr. Martinez on a number 
of issues that are before the agency.
    As many of you know, Fixing America's Surface 
Transportation Act, or FAST Act, was the first long-term 
surface transportation reauthorization bill in a decade and 
included a number of reforms to laws governing the safety and 
oversight of commercial motor vehicles. Specifically, the FAST 
Act increased funding for and consolidated motor carrier grant 
programs and streamlined programs to reduce administrative 
costs and regulatory burdens on the States.
    Something I am very proud of that was important to a number 
of committee members was that the FAST Act reformed the 
Compliance, Safety, Accountability program, the CSA program. We 
heard loud and clear the concerns from the industry, the 
Government Accountability Office, and the DOT [Department of 
Transportation] inspector general, and the committee is going 
to continue to look closely and monitor closely these reforms 
as FMCSA [Federal Motor Carrier Safety Administration] 
implements them.
    In addition, the FAST Act reformed the regulatory process 
by requiring FMCSA to use the best available science and data 
on various segments of the motor carrier industry when 
developing rulemakings and establishing a process under which 
the public or the industry can petition FMCSA to revise or 
repeal regulations if they are no longer current or consistent 
or uniformly enforced.
    Finally, the FAST Act provided opportunities to veterans by 
easing the process for individuals who are currently serving in 
either the armed services or Reserve components to find 
employment in the trucking industry. And it also established a 
pilot program for veterans and Reserve members younger than 21 
years of age who received training during their service in the 
military to drive certain commercial motor vehicles in 
interstate commerce.
    Our witnesses are going to offer their feedback on the 
implementation of various motor carrier provisions of the FAST 
Act as well as a number of other issues that are facing the 
industry today.
    I want to thank you again, all of you, for appearing today. 
I know it takes time out of your schedules to be here, and we 
look forward to hearing your testimony.
    With that, I will turn to Ms. Norton for her opening 
statement.
    Ms. Norton. Thank you very much, Chairman Graves. I very 
much appreciate this hearing, especially at this time when we 
have a new Administrator, Administrator Martinez, whom I am 
pleased to welcome.
    I particularly appreciate this hearing, as well, Mr. 
Chairman, because in June of 2017 I wrote and requested a 
hearing because of the upcoming release--it hadn't yet been 
released, but there was considerable interest in the release--
of the National Academies of Sciences, Engineering, and 
Medicine's study of the FMCSA's compliance and safety program.
    So I think that what you are doing today is certainly in 
keeping with what my concerns have been. And, clearly, your 
calling this hearing today shows that you, Mr. Chairman, have 
the same concerns. And I appreciate your using this hearing, 
now that we have a new Administrator, for us to assess where we 
are on the very vexing issue of the increase in the number of 
people who lose their lives because of truck accidents.
    Usually, we are able to do something in our country when we 
see things going up and then we gradually take action and the 
problem begins to decrease. But there has been an almost 30-
percent increase in the number of fatal truck and bus crashes 
in the last almost 10 years since 2009. With the new 
Administrator, with these figures showing no movement, this 
hearing is especially timely so that we can understand where we 
are and can move forward more rapidly.
    The major concern I have, Mr. Chairman, is with the safety 
fitness determination rule. The agency has been working on this 
rule for more than a decade in order to get a better system to 
track the safety record of motor carriers. So I understand the 
difficulty of the issue, but the timespan becomes unacceptable 
in light of what we are seeing with the increase in truck and 
bus fatalities.
    I note that 85 percent of carriers do not have a safety 
rating, and if you look more closely at these figures, it shows 
that 40 percent of the ratings are more than a decade old, 
which means that they are probably not a good indicator of the 
carriers' current level of safety. So we are really behind, 
even where we have been doing better.
    To the credit of the trucking industry, that industry has 
asked for years for a bright-line safety test that would be 
developed by the agency. That effort, of course, is currently 
underway at the FMCSA to evaluate its underlying data and 
analysis model, to look at its algorithms. But that is what you 
have been doing, or that is what the agency has been doing for 
10 years. I say time is up and that the time has come for 
ensuring that the agency responsible for ensuring truck and bus 
safety actually issues safety ratings.
    I have long advocated a more robust commercial truck and 
driver training, for more commercial truck and bus training. 
There seemed to have been agreement, but I was disappointed 
that we did not get exactly what I wanted in the final rule.
    Congress first directed the Department of Transportation to 
develop training standards for commercial motor vehicles a 
quarter of a century ago. In 2016, the FMCSA did issue a new 
rule based on the recommendations of a negotiated rulemaking. 
Now, negotiated rulemaking is a very good way to proceed. 
However, the agency failed to advance a critical recommendation 
that proceeded from that rulemaking: to require a minimum 
number of hours behind the wheel training.
    Mr. Chairman, this is graduation season. In order to 
graduate from college or high school, you have to have a number 
of hours. That is how we know whether you are educated in the 
subject, whether you are trained. I don't see how we can fail 
to require the same for people who get behind the wheel of the 
biggest vehicles on the road.
    I want to commend Administrator Martinez for his efforts, 
the efforts of the agency in implementing the electronic 
logging device rule. We call it ELD. That mandate that Congress 
did pass in MAP-21 [Moving Ahead for Progress in the 21st 
Century Act], the bill before the FAST Act. I particularly note 
that you, yourself, Mr. Martinez, mentioned the ELDs and called 
them lifesaving technology. I believe that the committee 
entirely agrees with you.
    I am disturbed by claims that ELDs are the cause of major 
disruptions in the trucking industry. Let's look at what they 
do. The requirement to move to electronic timekeeping does not 
make any change in the underlying duty rules. A driver is 
legally allowed to drive for the same amount of time whether 
tracking hours electronically or on paper. The difference, of 
course, in having an ELD means a driver must completely and 
fully comply with Federal limits. I am not sure, therefore, 
what the objection should be.
    I strongly support the ongoing dialogue. It is the way to 
proceed, in my judgment, among the U.S. DOT and Congress toward 
the collaboration that has moved us this far.
    I note that we do not have representatives from the 
American Trucking Associations, the Owner-Operator Independent 
Drivers Association, or labor. We do not have a shipper 
witness. I believe that complex motor carrier safety regulatory 
issues warrant robust discussion in Congress with all 
stakeholders represented. Hearings where a wide swath of 
industry is left off the agenda amount to a missed opportunity.
    I ask unanimous consent to include in the hearing record 
submissions from stakeholders not able to sit at the witness 
table for today's hearing. Could I have a consent for that, Mr. 
Chairman?
    Mr. Graves of Missouri. Without objection.

        [A statement from the Advocates for Highway and Auto Safety is 
        on pages 101-131.]

    Ms. Norton. Finally, I would like at this time also to 
welcome Jennifer Tierney, who will be on the second panel, and 
other volunteers from the Truck Safety Coalition in the 
audience today.
    Thank you for this hearing.
    Mr. Graves of Missouri. I will now turn to the chairman of 
the full committee, Bill Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    And thanks to Administrator Martinez for being here. You 
have been, I guess, I figure, about 3 months on the job, but I 
know you have vast experience in this industry. And so, again, 
welcome. We are glad you are here today, as well as all the 
witnesses.
    One of the goals of the FAST Act was to provide the motor 
carrier operators with some regulatory relief while also 
maintaining a very high level of safety, and I think we are 
moving significantly in that direction. So I appreciate what 
the folks are doing over at the FMCSA in making that progress.
    So, again, looking forward to hearing from you today, 
Administrator. But, in addition, I would also like to welcome 
one of our stakeholders that is going to testify, Mr. Dale 
Krapf from Pennsylvania, who operates motorcoach and 
schoolbuses throughout Pennsylvania.
    Welcome. It is good to have you here and your vast 
experience and knowledge about operating out there in the real 
world and having to deal with inside the beltway and the 
impediments we put up, sometimes wrongly, to do things and it 
affects your business negatively.
    But I am looking forward to hearing from all our witnesses 
today. Thank you, Mr. Chairman, for holding this hearing, and I 
yield back.
    Mr. Graves of Missouri. Thank you, Mr. Chairman.
    I will now turn to the ranking member of the full 
committee, Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman.
    It is certainly an important subject. I think that we could 
have had a more diverse panel representing trucking interests 
and the people who work in the industry, but it is what it is.
    I thank Mr. Martinez for being here. I think this is the 
first hearing we have had him. And he has a lot of challenges 
ahead.
    You know, we had 12 people die every day in large-truck 
crashes in 2016. That is 4,371 deaths in 1 year. Now, imagine 
if we had a fraction of that in aviation or some other critical 
public transportation sector. We need to deal with this.
    I mean, there is potentially technology in the future that 
will help. I have seen the driver-assist Uber truck, the Tesla 
truck, and others. They are not self-driving, but they can do 
driver-assist. So there may be some technological fixes out 
there. But there are certainly other fixes which relate to 
training, as enumerated by the ranking member, to fatigue, 
which is an extraordinary problem, and other issues.
    And there are a few things pending that I am concerned 
about.
    I mean, first is we had a recent amendment on the FAA bill 
regarding exemptions from liability for brokers because there 
is no reliable data out there from FMCSA. I have raised 
concerns about the CSA with several Administrators. We did put 
a mandate in the FAST Act that this be reviewed and corrective 
action be taken so that we can have meaningful and accurate 
safety data out there for anyone who wants to hire a company or 
a driver. And they can look and say, whoa, I don't think I want 
to hire that one, but, oh, this one, triple-A-plus, great. So 
we need to get that done.
    The other issue there would be that part of the reason for 
that exemption is because more and more litigation--they are 
looking for anybody, somewhere, who can pay the catastrophic 
costs of a large-truck accident. You know, in 1980, Congress 
set the level at $750,000 for insurance. Now, if we just pegged 
that to CPI, it would be $2 million, except that the DOT itself 
says that it is more a relationship to medical costs, and so it 
should be more like $3 million, if it were indexed for medical 
costs since 1980.
    And, again, for lack of that and a meaningful CSA score, we 
are having Congress attempt to push through liability 
exemptions and other things. We have to get this stuff done.
    Then the other issue that causes, I think, a lot of 
problems in the industry is detention time. You know, if you 
study economics, there is something called an external 
diseconomy. I dump my waste out the back door into the river; 
someone else has to clean it up. You know, if someone else has 
to pay for it, that is an external diseconomy. I saved money; I 
dumped it out the back door.
    So we have some warehousers and others who are receiving 
goods or ports where the drivers have no predictability. And 
they are on the clock. And, wow, I am sitting here waiting to 
get--well, we don't care. Sorry. You are going to sit there 5 
hours. We are busy right now. We don't schedule you. We didn't 
make accomodation for you. Except that drivers have to move on 
to another delivery and make a living.
    So, you know, they are often confronted with getting paid, 
moving goods by the load, or, you know, not getting adequate 
rest, which could mean a violation of rest and duty time, which 
can lead to accidents.
    I asked for an IG [inspector general] study. We didn't get 
too much done because there is no reliable data. Another 
mandate of the bill was that your agency mandate a rule where 
truck drivers would report detention so we could put together a 
database.
    The other good thing about that would be, if it became a 
public database, then you could actually have a market-based 
solution, in part because drivers could say, ``I am never 
taking a load to that place. Everybody has to wait 5 hours. I 
am not going there.'' And that could cause some corrective 
action on the part of some of these receivers of the freight.
    But the IG study did say that a 15-minute increase in 
average time loading or unloading at a facility increases the 
expected crash rate by 6.2 percent. Wow. That is an 
extraordinary thing that could be avoided with more efficiency 
in the system.
    But, you know, when someone who doesn't care to be 
efficient because it would cost them a little money, you know, 
and they no longer get penalized, like we used to do, and say, 
wait a minute, if you make that driver sit there for 2 hours, 
you are going to pay for their time--that was what detention 
pay was, and it went away with deregulation.
    So we have created some problems in the whole chain of 
delivery and efficiency of the system that I think we need to 
deal with. I mean, you know, people say, oh, we can't have any 
more rules, they all have unintended consequences. But there 
are also unintended consequences of totally repealing rules, as 
I have just described with the detention time problem and other 
things.
    So thoughtful rulemaking that does not unnecessarily impede 
the industry but actually facilitates the improvement of the 
industry could help us deal with the driver shortage, could 
help us deal with safety issues. I mean, there is a lot that 
could be done here beneficially.
    So I look forward to hearing from the Administrator and the 
other witnesses.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. All right.
    Today, we are going to have two panels of witnesses.
    And I want to again welcome the Honorable Ray Martinez, who 
is the Administrator of the Federal Motor Carrier Safety 
Administration.
    I would ask unanimous consent that his full statement be 
included in the record.
    And, without objection, that is so ordered.
    And since your written testimony is going to be included as 
part of the record, the committee would request that you limit 
your testimony to 5 minutes.
    With that, Mr. Martinez, we appreciate you being here.

  TESTIMONY OF HON. RAYMOND MARTINEZ, ADMINISTRATOR, FEDERAL 
              MOTOR CARRIER SAFETY ADMINISTRATION

    Mr. Martinez. Thank you very much, Chairman Graves, 
Chairman Shuster, Ranking Members DeFazio and Norton, and 
members of the subcommittee. Thank you very much for inviting 
me to testify about FMCSA's work.
    FMCSA's primary mission is to reduce crashes, injuries, and 
fatalities involving large trucks and buses. We regulate more 
than half a million interstate motor carriers and nearly 4.7 
million active holders of commercial driver's licenses.
    Our commercial Motor Carrier Safety Assistance Program 
supports 13,000 State law enforcement partners, who conduct 3.5 
million commercial motor vehicle inspections each year.
    We thank Congress for the FAST Act changes that streamlined 
our grant programs and increased funding levels, providing 
critical resources so that our State enforcement partners and 
other grantees can carry out important safety work every day.
    We have seen much success, but much more remains to be 
done. Highway fatalities increased from 2015 to 2016 in all 
segments, including crashes involving large trucks and buses. 
So our work, Mr. Chairman, continues.
    Since beginning my tenure with FMCSA in February of this 
year, we have engaged with our industry and safety partners, 
working consistently to maintain the safest transportation 
system possible. One of the ways FMCSA is working toward these 
goals is helping industry transition to ELDs to address hours-
of-service compliance and driver fatigue.
    The ELD rule requires most drivers to use ELDs to record 
information about their hours of service. Full enforcement of 
the rule began April 1st of this year, and we are seeing some 
preliminary results. Of the nearly 300,000 driver inspections 
conducted since April 1st, less than 1 percent of drivers 
inspected have been cited for failing to have an ELD when they 
were required to have one.
    The FMCSA is also working to address the unique needs of 
the agricultural industry, and we have heard a lot from that 
sector. For example, the agency has issued two 90-day temporary 
waivers from the ELD rule for agriculture-related 
transportation.
    FMCSA has worked to ensure that our partners and 
stakeholders understand the requirements surrounding the use of 
ELDs. Since 2017, we have conducted more than 550 outreach 
events regarding ELD requirements nationwide, with more events 
planned in the future.
    Mr. Chairman, I would also like to mention the efforts the 
FMCSA is making to help military members and veterans 
transition to civilian life. We thank Congress for working with 
the FMCSA to reduce those administrative barriers. These 
efforts include options such as allowing States to waive the 
skills test for military personnel with appropriate experience.
    Additionally, we are finalizing a rulemaking to establish a 
training program for qualified providers at the Department of 
Veterans Affairs to become certified in conducting commercial 
drivers medical examinations. We are working to implement an 
``under 21'' driver pilot program to allow drivers with certain 
military training to operate commercial motor vehicles in 
interstate commerce. The FMCSA believes these rulemakings will 
produce better trained and qualified commercial motor vehicle 
drivers.
    And, finally, FMCSA is moving toward encouraging 
innovation, one of Secretary Chao's top priorities, with our 
work with our partners on automated driving systems.
    The Motor Carrier Safety Advisory Committee met recently to 
discuss highly automated CMVs [commercial motor vehicles] and 
will issue recommendations later this year. We are working with 
NHTSA [National Highway Traffic Safety Administration], Federal 
Highway Administration, the Federal Transit Administration, as 
well, to develop comprehensive plans to better manage 
Department initiatives related to automated vehicles.
    The FMCSA recently released a request for comments about 
regulations that could be a barrier to the safe testing and 
deployment of these technologies on public roads. The comment 
period ended on May 10th, and we are reviewing the information 
that was received.
    Engaging the community through outreach activities with 
industry, safety advocates, driver organizations, and the 
motoring public is ongoing.
    Mr. Chairman, the public expects a safe, efficient, and 
reliable transportation system. With your continued support, 
FMCSA employees, our partners, and stakeholders will continue 
sharing this commitment to maintaining safety for all road 
users.
    I would be happy to answer any questions that you may have.
    Mr. Graves of Missouri. Thank you, Mr. Martinez.
    We will now turn to the chairman of the full committee, 
Bill Shuster, for questions.
    Mr. Shuster. Thank you, Mr. Chairman.
    You talked a little bit about the--in the FAST Act, we 
created a military pilot program, and you mentioned that a 
little bit. Can you tell me how far along you are? Are we 
starting to see the effects of it, or is it still in the 
planning process?
    Mr. Martinez. Yes. Much of what we do--and, again, I am 3 
months on the job, just about--involves a lot of data gathering 
before these programs can be launched.
    I have been assured that the pilot will be stood up by 
early next year. And what it would look to do is to provide the 
opportunity for military personnel between the ages of 18 to 
21, with appropriate training, to transition very easily into 
the commercial side.
    Currently, we are completing an information collection 
process. And we will need to get Office of Management and 
Budget approval to collect additional data during the pilot 
program. Because it is a pilot program. We hope to gather 
additional information from that to see if this could actually 
be expanded to a larger population.
    Mr. Shuster. Well, again, there is a driver shortage out 
there. As you move forward, any way we can be of help to you 
with OMB, we certainly want to.
    Because, as I said, there is a driver shortage, and that is 
the next question. What are the things that you may be able to 
do, what are the things that maybe we need to do to improve 
that? My understanding was there is a 50,000 to 75,000 shortage 
of drivers and that number is going to continue to grow.
    Mr. Martinez. Right. And one of the things that--I do 
believe it is worth--I think this pilot program is an excellent 
first step, because the logic is simple: Look at some of those 
younger drivers.
    The difficulty is that, if you look at the broader 
population, younger drivers are involved in a higher percentage 
of crashes, injuries, and fatalities in the general population. 
That doesn't necessarily mean that in a segment--for instance, 
military personnel, who have training, who have discipline, 
that they might be able to certainly put that type of general 
data aside.
    So expanding the population of potential drivers, I think, 
is one way to look at it. The other thing is to look at what is 
happening with drivers out there, what is the quality of life 
that these drivers have. Driving in the commercial sector has 
always been a very difficult job, and are we making this 
harder, or are we making it something that people could look 
forward to and say, this is a good career, not just a job on a 
temporary basis?
    Mr. Shuster. Right. Well, I know we had a roundtable a 
couple months ago talking about autonomous trucks, and, of 
course, the fear for many out there is that it is going to 
displace drivers. Well, the folks that I have been talking to 
in the trucking industry said you are talking about 40 or 50 
years before that happens.
    And the idea that you can take the toughest--and you tell 
me if your experience is different from mine. But from what I 
hear, the toughest drivers to get are those that have to do the 
long haul, have to leave home for weeks at a time and drive 
long stretches of road. It is monotonous. And with autonomous 
vehicles, you can reduce the amount of drivers on those 
stretches. And then when you pull into a city--Pittsburgh or 
New York or Los Angeles--when the truck pulls off the road, 
there is a group of drivers there at some facility that can 
take it the final mile, the toughest part of the haul, and, 
also, they can be home at night, or most nights.
    So is that something that you perceive it the same sort of 
way?
    Mr. Martinez. We are very excited about the prospects and 
the possibilities of fully autonomous vehicles and what that 
would bring. Of course, any change will have some levels of 
disruption.
    But, from our perspective, you know, we are looking at, 
what would that add to the safety environment? It is all about 
safety. And we believe that there are some real possibilities 
there for both improving safety, efficiency, and the economy.
    That said, I must say that, while, as you said, we might 
look at 40, 50 years for a fully autonomous vehicle, I am 
excited about all the additional safety measures that are being 
added to trucks on a daily basis because of these developments 
in technology.
    And that, by the way, ties into the previous question. It 
is making the job a little bit easier for those drivers, 
because you have this additional technology that is available 
today, that is being incorporated today, that is helping them 
on the road and making it safer.
    Mr. Shuster. All right. There are lots of technologies 
going out there. And I just want to make the point, I always 
try to make this point, is that, although we have seen, I 
think, an uptick a little bit in accidents and fatalities in 
the trucking industry, but over a long period of time I think 
the numbers stay pretty consistent that 75 percent of the 
accidents that truck drivers are in are not their fault. It is 
the traveling public that cuts them off or whatever.
    So, again, the folks in the industry are doing a good job. 
They can do better, but I think that all these new technologies 
certainly can help to make it even safer out there.
    So thank you very much.
    Mr. Graves of Missouri. I will turn to Ranking Member 
Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Martinez, you will perhaps recall I mentioned in my 
opening remarks my concern that the agency does not have a 
reliable, easy-to-read system to verify the safety of a motor 
vehicle. This has been a long-outstanding issue.
    And the agency is 7 months late in submitting an action 
plan that Congress required in the FAST Act. This was made even 
more urgent because of recommendations by the National 
Academies of Sciences, Engineering, and Medicine, and I 
mentioned their study, as well, in my opening statement.
    When will Congress receive the action plan required by the 
FAST Act? Remember, the FAST Act, I think, was passed 3 years 
ago.
    Mr. Martinez. Thank you.
    That is correct. The report, I believe, was due December 17 
of last year. You can imagine my disappointment in assuming 
this position in February and seeing that that had not been 
submitted. I can tell you that, as we speak today, it is in 
final departmental review, and I hope that that will be 
forthcoming.
    But that said, we have been directed----
    Ms. Norton. Well, you hope that it will be forthcoming, Mr. 
Martinez? It is in final review. If it is in final review, you 
should be able to tell us when you expect it to be final.
    Mr. Martinez. And I don't have a date for when that would 
be made available.
    What I will say is that we have not waited for that study 
to be put forward. We are moving. We have fully accepted the 
National Academies of Sciences, Engineering, and Medicine's 
recommendation, and we are moving forward with their 
recommendations.
    Ms. Norton. So you are now in the process of implementing 
the recommendations of the National Academies of Sciences, 
Engineering, and Medicine?
    Mr. Martinez. That is correct. We have accepted those 
recommendations. We have started with having initial public 
meetings to continue to gather input into the corrective action 
plan.
    We have contracted with the National Academies of Sciences, 
Engineering, and Medicine, in fact, to continue for them to 
provide guidance to us, because we think that that is something 
that was sorely needed at the FMCSA.
    Ms. Norton. Well, I do appreciate that. It does seem that 
you have the information in hand to proceed, and not waiting in 
a bureaucratic fashion----
    Mr. Martinez. Right.
    Ms. Norton [continuing]. For that endpoint is important to 
us.
    Last year, the agency withdrew a proposed safety fitness 
determination rule that had been developed by the prior 
administration.
    Now, this rule is what I thought all of us are always 
after. It cut through all of the confusing data, all of the 
technical stuff, to provide a bright-line safety test by 
assigning a ``safe'' and ``unsafe'' rating. That is what the 
public and the industry want and expect the Government's truck 
and bus safety regulator to produce.
    Are you committed to issuing a final rule? We call it the 
safety fitness determination rule, SFD. And what is the 
timeline for that rule so that we can all understand what is 
safe and what is not safe?
    Mr. Martinez. Well, I think that would be helpful. This 
goes back to the old adage of ``bad data in gives you bad data 
out'' and, in fact, for an agency like ours, may often result 
in greater confusion, in misplaced enforcement efforts, and 
perhaps litigation.
    I think it is critical at this time to focus on making sure 
that we are gathering the right data for analysis. And that 
involves preliminarily speaking with industry representatives, 
safety advocates, and third parties like the National Academies 
of Sciences, Engineering, and Medicine----
    Ms. Norton. Do you operate on the basis of a timeline, Mr. 
Martinez? They have been doing that all along. So, unless you 
have a timeline, I don't know how we can expect that the public 
will understand what is safe and what is not safe. I would like 
to get some understanding from you of what at least the 
timeline is.
    Mr. Martinez. And I can't give you a hard date for when 
something----
    Ms. Norton. All right. Mr. Martinez, I can understand that 
you are new, but could I ask you that you get to the chairman a 
timeline? I am not even asking you for a date.
    Mr. Martinez. Yes, ma'am.
    Ms. Norton. I am asking for a timeline, because I think 
this critical information going to the public is so important.
    Finally, let me ask you about the fatalities I think all of 
us on both sides have been discussing. There has been a 
compelling case made to mandate automatic emergency braking as 
a way to prevent the increase in these deaths. Now, this 
technology has been commercialized a long time ago and is 
mandated in trucks in the EU [European Union] and, I 
understand, will be in every car by 2020.
    That is very important, that the industry is ahead of the 
Federal Government. Why can't we mandate this automatic 
emergency braking to indicate to the industry we understand 
what they are about and they should get to it even more 
rapidly?
    Mr. Martinez. Well, those are areas that, of course, 
especially with emergency--with the braking systems, that we 
are evaluating. I will say this: That, as was referenced 
earlier, some of the great advances are already occurring in 
industry, and they are incorporating new technologies across 
the board that are improving safety, regardless of mandates.
    So that is an area that we would be happy to work with 
Congress and work with the industry to continue to study to see 
what would make sense.
    Ms. Norton. Well, I appreciate your answer, but I also 
appreciate the industry is going ahead and doing it. I think it 
is a good thing that Congress ought to be very involved, and I 
think they are doing it for a reason. Nobody wants to be 
involved in and incur the liability if one of these accidents 
in fact takes place.
    So I thank you very much, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Administrator, thanks for being here.
    The first question is, when we did the FAST Act, it 
established a pilot program for veterans and Reserve members 
younger than 21. If they were driving heavy trucks in the 
military, they could now drive heavy trucks out, going through 
stuff. How is that working out?
    Mr. Martinez. We are in the final stages, and, as I have 
said, the pilot program should be stood up next year. We are in 
a data-gathering mode right now, and we need at least one 
approval before we can roll that out.
    We think that is going to be helpful, not just because it 
will add a new population to the driving population, but also 
the data that we hope to get may inform us and Congress about 
whether that population can be expanded beyond military.
    Mr. Hunter. So I have data here in front of me. I was well-
prepared for this hearing. In 2016, 16- to 20-year-old male 
drivers were actually less likely to be involved in fatal 
crashes than their 21- to 24-year-old counterparts. Have you 
found that?
    Mr. Martinez. I am not familiar with that data.
    Mr. Hunter. Are you looking at data like that?
    Mr. Martinez. Well, we know the general data in the 
population of general drivers. But I think, more specifically, 
we would want to look at those in that age group that have 
commercial driver's licenses and drive intrastate. And that is 
not information that I currently have.
    Mr. Hunter. So let me ask you, how many States, contiguous 
States, allow for a commercial driver's license between the 
ages of 18 and 21?
    Mr. Martinez. I don't know that off the top of my head, but 
that would be relevant information.
    Mr. Hunter. Well, let me answer it for you, Administrator. 
The answer is all of them. All 48 contiguous States allow for 
commercial driver's licenses for trucks after you are 18 and 
between the ages of 18 and 21.
    Mr. Martinez. Uh-huh.
    Mr. Hunter. I have a bill called the DRIVE-Safe Act. There 
is a companion bill in the Senate. And it allows for a pilot 
program for people ages 18 to 21 to go drive. That is why I am 
asking this. There is pushback on this, but I don't get why, 
because, again, all 48 States allow for an 18-year-old to get a 
CDL [commercial driver's license].
    So you can drive from San Diego to Sacramento, which is 
about 500 miles, but you can't drive from San Diego to Reno, 
which is just over 500 miles. So it is the exact same distance. 
And if you overlay California over New York State, it goes all 
the way down to North Carolina. So you can drive from San Diego 
all the way up to northern California. It would be like driving 
from New York City all the way down to North Carolina. But that 
is illegal, because you cross State lines.
    OK. Can you explain that, how that makes sense, just 
logically, in our minds?
    Mr. Martinez. No. And I am not actually familiar with that, 
and I believe that that is something that deserves exploration.
    As a former motor vehicle commissioner both in New York and 
New Jersey, you know, I will say that those who are in that 
population who have a CDL would be probably safer than the 
general population. The problem is the general population of 
those in that age group are disproportionately involved in 
crashes, injuries, and fatalities at high rates of speed----
    Mr. Hunter. Let me interrupt you again. I have the stats 
from 2012 to 2016. For those 4 years and 2016, which is the 
latest year for NHTSA data, 16- to 20-year-old male drivers are 
less likely to be involved in fatal crashes than their 21- to 
24-year-old counterparts.
    Mr. Martinez. I would be happy to see that data. And, 
frankly, as I stated earlier, we can only move with information 
that is provided to us or that we can be informed by. That is 
how we make regulations, and that is how we move forward.
    I think that to cut to your question, which I think is an 
important one, there is a shortage of drivers. There is a 
population that could easily help in that effort. The question 
is, you know, can we have some kind of a structured 
environment, like the military pilot program, where we know we 
are getting disciplined individuals who have been trained, 
perhaps go into mentorship programs or something like that, so 
that it is not the general population that you are dealing 
with, it is regulated.
    Now, I will say kind of what we did as motor vehicle 
commissioners around the country, where we adopted graduated 
driver's license programs, where the younger drivers were 
basically told, you are on a conditional situation and you have 
to have a certain amount of training, et cetera, before you can 
drive.
    So I think it is worth exploring. We are not unalterably 
opposed in any way to this. It is something we would be eager 
to work with Congress, the industry, and safety advocates on.
    Mr. Hunter. Thank you, Administrator.
    And I just want to stress one last time, again, you can be 
18 or 19 or 20 and drive in any State in the country. You 
simply can't cross a State line.
    So I am not sure what putting more rigor--we all for it, 
making sure it is safe, and more classes. But, right now, it 
exists as is. And we have the power in this committee to give 
people jobs and to make it so you can drive interstate 
commerce, not just intrastate commerce, and you will be legal 
when you cross that 1-foot State border.
    So thank you very much.
    I yield back the balance of my time.
    Mr. Graves of Missouri. Mr. DeFazio?
    Mr. DeFazio. Thanks, Mr. Chairman.
    Mr. Administrator, I mentioned earlier the issue regarding 
insurance. And, in fact, I mean, obviously, this predated you, 
but it came out of DOT in 2014: ``Current insurance limits do 
not adequately cover catastrophic crashes, mainly because of 
increased medical costs.'' And the estimate would be that 
today, that would be about 3 million bucks.
    What is your experience with from New Jersey and/or opinion 
about looking at a review of this 1980 limit?
    Mr. Martinez. Yes, it does seem, just looking at it from 
the outside, that when you see a date of 1980 that that is 
problematic. We understand the importance of the issue as well. 
Insurance coverage is about ensuring that, in the unlikely 
event a crash occurs, those involved are all protected.
    Back to 2014, the FMCSA published an ANPRM, an advance 
notice of proposed rulemaking, with the hopes of collecting 
information. And what the FMCSA found, unfortunately--and, 
again, this does predate me--was that much of the relevant 
information that would inform the agency to move forward was 
proprietary in nature, and we would not have access to it, and 
it was not being voluntarily provided.
    We do believe that there is relevant information out there, 
both in the industry and--from the insurance industry, perhaps, 
but certainly in the commercial motor vehicle industry. And we 
would be eager to work with Congress on this, should Congress 
choose to move forward.
    Mr. DeFazio. So you are saying you can't get the experience 
data from the industry.
    Mr. Martinez. We can't get the----
    Mr. DeFazio. From the insurance industry.
    Mr. Martinez. That is correct. Much of it is proprietary. 
And, of course, you always have to look at information that is 
provided to you----
    Mr. DeFazio. Uh-huh.
    Mr. Martinez [continuing]. With some judgment as to whether 
it is skewed or not.
    Mr. DeFazio. But I think there is also, though, a kind of--
I think there is some data on how many crashes there are and 
how expensive they were, and this could be looked at through a 
study.
    But, I mean, beyond that, I carry a million bucks for my 
own personal vehicle, you know, for liability, and I question 
whether that is enough. I mean, for a large, heavy truck, 
$750,000, common sense says, eh, that is probably not enough. I 
mean, sure, crashes are not that likely, but when they do 
happen, the severity is such that--you know. It is unfortunate, 
because this is causing a chain of events where now someone 
hires a lawyer because of a fatality or an injury, and the 
lawyer says, ``Well, it is only 750,000 bucks. Your medical 
costs are $3 million. Well, we have to go after the truck 
manufacturer, we have to go after the broker, we have to go''--
I mean, we don't have deep pockets here if it isn't a big 
company and it is an individual driver.
    So something, I think, needs to be done here to better 
protect the public interest.
    Mr. Martinez. And, Congressman, I agree with you; it 
deserves some evaluation. We, I think, have tried this before 
my time here, and they felt that they didn't have the 
information on hand to move forward with certainty.
    Mr. DeFazio. Right.
    Mr. Martinez. But that doesn't mean that it is not worth 
exploring.
    Mr. DeFazio. OK. Well, if you come up with some innovative 
ideas on how to move forward on this issue, I would love to 
chat about it.
    Mr. Martinez. Yes, sir.
    Mr. DeFazio. And then quickly, just back to detention time, 
because, again, I think this is a root problem for a lot of 
drivers. There is certainly anecdotal evidence and actual 
documented evidence about how little many drivers can earn 
because of their delays either at ports or at--and when they 
are doing piece rate especially--and at delivery points.
    And I think it is also, you know, the likeliest form of 
incentive or, shall we say--I don't know if you want to say 
``incentive''--for someone to violate hours of service. 
Because, hey, I had to sit there 3 hours, and now I have to get 
this other load, and if I don't get that load, then I get 
blacklisted because I didn't keep up.
    And so, how are we going to move forward on getting, as the 
DOT inspector general said, reliable, accurate, representative 
data on the frequency and severity of driver detention, which, 
prior to you, your agency concurred with, but there doesn't 
seem to have been any action?
    Mr. Martinez. I agree with you on the detention time 
problem. We have, again, received--in my personal conversations 
with industry, from the driver level to companies, owner-
operators, this is a problem out there, and it does translate 
into a safety issue.
    Currently, the FMCSA will be publishing a request for 
information from the industry, from drivers, technology 
vendors, and shippers to better understand the scope and the 
characteristics of the detention time, because that is 
something that we are going to need.
    Regrettably, FMCSA doesn't have any real authority or 
jurisdiction over this. However, as I said, it is a safety 
issue, because it is an abuse of the drivers, and it is abuse 
of those operators if they are indeed held up 5, 6 hours, and 
it becomes a safety issue.
    I believe, in an odd way, the electronic logging devices, 
which have been somewhat controversial, may provide some ray of 
light here, not for FMCSA but for industry to gather 
industrywide information to see how widespread is this problem, 
who is abusing this. And if they were to voluntarily provide 
that information to FMCSA, we would be happy to review it.
    Mr. DeFazio. I agree. It seems like the ELD is purpose-
built for this. You know, it is an app, essentially, and you 
just have one category in the app which you hit, which is 
detention time, while you are sitting there, and when it is 
over, you click off. And then the company, the individual, 
whatever, would have reams of data over time.
    OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Gibbs?
    Mr. Gibbs. Thank you, Chairman.
    Thank you, Administrator, for being here.
    This might have been answered earlier, but I want to just 
kind of reconfirm it. I have been working to reform the CSA 
program, because I think it has a lot of issues about fair 
representation, fair to our motor carriers.
    I think, you know, in the FAST Act, the reforms and 
revisions were supposed to be to Congress by January. I think 
maybe you answered this, that you don't have a timeline, but 
you hope to have it soon. Is that right?
    Mr. Martinez. On the CSA?
    Mr. Gibbs. Yes.
    Mr. Martinez. Yes, that is correct. It was supposed to be, 
I believe, submitted in December 2017.
    Coming in in February, I obviously asked what was the 
delay. It is currently under final review. I don't have a 
specific----
    Mr. Gibbs. OK.
    Mr. Martinez [continuing]. Date that it would be issued, 
but it is not holding us up in implementing recommendations and 
moving forward with corrections. We have actually contracted 
with the National Academies of Sciences, Engineering, and 
Medicine to help guide us to implement these recommendations.
    Mr. Gibbs. Well, I would just like to reinforce with you, 
since you are new in the position, that the program has just 
been really unfair, where our drivers, our trucking companies 
have been getting dinged, when it hasn't been their fault, when 
there is an accident. It hurts their insurance rates, hurts 
their ability to be hired by other shippers. So I think that 
that is absolutely necessary.
    Also, on another note, I heard from my constituents 
concerns about the rest periods/hours of service. I know the 
ranking member has just addressed and asked questions about 
that. But has FMCSA given any thought to making changes beyond 
the arbitrary hour limits?
    You know, a driver sees congestion--I guess what I am just 
saying is more flexibility for the drivers when they know they 
can't get there because there is an accident on the road and 
they pull off. Do they get flexibility? I am hearing this from 
my constituents.
    Mr. Martinez. Yes, Congressman, the--of course, our 
priority is always safety, so we look at any of these issues 
through that lens.
    I believe that a great first step has been these electronic 
logging devices, because now it makes everybody on a level 
playing field. And we all know, we have to admit that, you 
know, paper logs were fudged in the past. And now we can say, 
OK, it is electronic, less susceptible to that, certainly.
    Now let's look at hours of service and see whether some 
modifications--that is, not extending the hours, but providing 
some flexibility in the current rules.
    Mr. Gibbs. Yes.
    Mr. Martinez. And I will say that we are engaging with our 
stakeholders in the regulated community on this, and safety 
advocates, to say, what would be acceptable?
    And I would also add--because you are going to hear later 
from the enforcement community--we can't make these rules so 
complicated. Because these are all engagements that occur on 
the side of the road or in circumstances where it is law 
enforcement and stakeholders of the regulated community, we 
have to make sure that there are clear rules, but that provide 
flexibility.
    Mr. Gibbs. Yes. I think ``flexibility'' is the key word, so 
I kind of wanted to get a point across.
    Speaking of electronic logging devices, has your agency 
seen any issues where they are not working? And have you been 
forced to intervene with the manufacturers?
    Mr. Martinez. There is a large number of manufacturers and 
different devices. At present, there are about 370 different 
devices available, 247 manufacturers.
    We have seen some reporting of ELDs that do not work. It 
has been sporadic. We have not had to deregister anyone as yet, 
but we are willing to do that should a particular provider or 
device show that they are not----
    Mr. Gibbs. OK.
    On another note, how many regulations has your agency 
rescinded since Secretary Chao has been Secretary?
    Mr. Martinez. I don't believe that we have, quote/unquote, 
``rescinded'' any regulations, although that is something that 
we are always looking to rescind or update.
    Of course, rescinding a regulation--to rescind a regulation 
you have to go through, essentially, the regulation process, so 
it would be somewhat time-consuming.
    But we are always looking for that, because that is what 
our stakeholders in the industry would look for, the updating 
of regulations.
    Mr. Gibbs. And so you are still planning on examining----
    Mr. Martinez. We are constantly reviewing our regulations, 
yes.
    Mr. Gibbs. Thank you.
    I yield back.
    Mr. Martinez. Thank you.
    Mr. Graves of Missouri. Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman.
    Thank you, Administrator Martinez, for being here.
    Administrator, I have been advocating for years that the 
Department of Transportation help evaluate and address the 
problem of undiagnosed obstructive sleep apnea in commercial 
vehicle operators.
    As it stands now, we do not even know how widespread this 
problem is, because there is no concerted effort to study this 
frequency in highway transportation operators. We are only made 
aware of the effects of sleep apnea after a high-profile 
accident.
    I represent Hoboken, New Jersey, and the last accident that 
happened with the rail in Hoboken, it was found that sleep 
apnea was part of the cause.
    Now, I am just wondering--we don't even do a study on sleep 
apnea to see the effects on the vehicle operators. Is that 
something that you would be willing to look into in the future?
    Because I know that it was there for a while, that it was 
going to be done, and there were some comments to withdraw it. 
But if we don't study it, we don't even know how impactful it 
is. And now we are starting to find out that in the commuter 
rail industry it is very prevalent, some of these accidents 
that sleep apnea is causing.
    I know how debilitating it is, because I suffer from sleep 
apnea, and, for me, sometimes it is difficult.
    Mr. Martinez. Thank you for that question. Because I know 
that, while OSA, obstructive sleep apnea, may be controversial 
or whether to mandate it or not, the health and well-being of 
drivers, commercial motor vehicle drivers, is of paramount 
importance to us. And OSA is a concern. It is one of those 
factors that is a concern to us, just like, say, diabetes might 
be.
    But the current safety programs that we have--as you know, 
commercial motor vehicle drivers do have to go through a health 
screening. Those providers are registered with us. And we 
enforce with them that they should continue to rely upon their 
medical training and expertise to determine whether a driver 
exhibits the multiple risk factors for OSA, because there are 
risk factors.
    And these medical professionals, we believe, should be 
trained properly to evaluate the individual in front of them to 
say whether they are a candidate for that.
    And I think that is where we stand right now.
    Mr. Sires. So do you think we have the tools to make any 
kind of decisions on sleep apnea for operators?
    Mr. Martinez. At this point, we are relying on the medical 
training of the doctors and medical professionals that 
currently do the medical evaluations of the drivers to say, 
does the driver in front of them show the risk factors for OSA.
    I can't inform that. I can't improve what training those 
medical professionals do, except to encourage them that this is 
something that is important to CMV drivers and to the FMCSA, 
that this is something that they should evaluate.
    Mr. Sires. OK. Thank you very much.
    I yield back.
    Mr. Graves of Missouri. The Chair notes the presence of our 
colleague, Congressman Mike Gallagher.
    And we appreciate your interest in this topic, and welcome 
to the committee.
    And, with that, I would ask unanimous consent that 
Congressman Gallagher be allowed to fully participate in 
today's hearing.
    And, without objection, that is so ordered.
    And we will now move to Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    Mr. Martinez, there has been a lot of discussion not only 
about ELDs but the F4A amendment. The F4A amendment is called 
that because, in 1994, Tip O'Neill actually had this as part of 
the FAA bill. We also call this the Denham amendment because we 
have passed it five times now into the Senate, and we are 
getting tired of doing that.
    But my basic questions are about the safety as it pertains 
to meal and rest periods. California and Washington, in their 
wisdom, have tried to create a patchwork.
    If you have more States that continue down this road, if 
more States continue to add their own meal and rest periods, 
first of all, how would the trucking companies be able to 
adhere to a patchwork across the entire country?
    And, secondly, what does that do to safety across the 
country if you are forcing drivers to pull over based on a 
clock versus based on when they are actually tired and these 
professionals want to take a break?
    Mr. Martinez. Well, thank you. And, as you know, hours of 
service is one of the things that we struggle with every day, 
in terms of regulating this community. We have that on a 
national basis, and that doesn't mean that it is not 
controversial from time to time, and we are always looking at 
it.
    I can't imagine how much more complicated it would be if 
individuals States adopted their own meal and rest break and 
hours of service, if you will. It would highly complicate the 
landscape, not just for the regulated community, for the 
companies and the drivers, but also for the enforcement 
community.
    So we certainly deal with this in other areas, which is why 
we like uniformity. We have uniformity in vehicle maintenance 
issues, drug and alcohol testing, and health screening of the 
drivers. Those are national. And I would just be very cautious 
if we go into that world of having 50 States or more 
jurisdictions add a patchwork of different rules and 
regulations.
    Mr. Denham. So, with the ELDs, electronic logging devices, 
being implemented across the board and capturing drivers' 
hours, can you not also use the ELDs to show that you are 
actually taking a break and verifying that you are taking a 
break and, hopefully, doing it when you are tired versus when 
are you stuck on the Golden Gate Bridge or some other bridge 
across the country that you happen to have that time come up?
    Mr. Martinez. Well, that is correct. As was noted earlier 
by another Member, the ELDs basically are a recording device. 
We have not changed the hours of service. Basically, it is 
whatever you would have normally put on your paper log, you now 
do it on your electronic log.
    So that is exactly what would happen. You would log that 
you are taking your break at such-and-such a time and for such-
and-such a reason, if you saw fit.
    Mr. Denham. Do you anticipate other States are going to 
follow in California and Washington's footsteps?
    Mr. Martinez. I have given up predicting these issues. I 
would just say, from a regulatory point of view and in my 
conversations with industry, I know that it would be a 
complicating factor.
    Mr. Denham. But, in this case, Federal preemption for 
interstate commerce is necessary for F4A, for this amendment, 
meal and rest, for safety concerns, having uniformity across 
the country.
    Mr. Martinez. I think, from the regulatory perspective and 
I believe from the regulated industry, uniformity is always 
something that would be sought.
    Mr. Denham. Thank you.
    I yield back.
    Mr. Graves of Missouri. Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman and 
Ranking Member, for holding this hearing. I apologize for being 
back and forth in more than one committee.
    Safety continues to be our top priority, not only here in 
Congress and at home but also for your Administration, Mr. 
Martinez. And so I am delighted that you are here today.
    As you acknowledged in your testimony, the discussion 
around highly automated commercial motor vehicles is quickly 
emerging as a prominent issue in the context of safety on our 
roads. In fact, I think many would agree that it is difficult 
to keep up with the pace with which the technology itself 
continues to evolve.
    The AV technologies represent a unique opportunity to 
improve safety on our roads but also present new challenges as 
we look to regulate the industry and identify the best 
framework in which to do so.
    I understand that the Motor Carrier Safety Advisory 
Committee met as recently as October of 2017 to discuss the AV 
commercial vehicles.
    Can you speak more to the level of coordination between 
your agency and the National Highway Traffic Safety 
Administration and the Federal Highway Administration and also 
the Federal Transit Administration to manage these new 
initiatives as it relates to the AVs? What are the initiatives? 
And where would you like to see more intra-agency and 
interagency coordination?
    Mr. Martinez. Thank you very much for that question, 
because, obviously, it is a very forward-looking and future-
looking issue of autonomous vehicles and automated driving 
systems.
    And we are working very closely with our sister agencies--
the National Highway Traffic Safety Administration, Federal 
Transit Administration, and Federal Highway Administration--on 
this.
    Most recently, we issued a request for comments from 
industry and the public on, what do you think of our existing 
regulations as it relates to possible testing of commercial 
motor vehicles, automated vehicles, on the roadways?
    Most of the general public, when they think about highly 
automated vehicles or fully automated vehicles, think in terms 
of passenger vehicles. They are not really thinking of that in 
the commercial space. And yet we know, as you mentioned, this 
technology is rapidly developing, and there may be very much a 
lot of interest from the marketplace. So we have to be ready 
for it.
    The first thing that we are doing, as I said, is asking for 
questions from the public. We also will be doing two listening 
sessions this year. And I expect that committee to issue a 
report helping to advise me this year as well.
    Ms. Johnson of Texas. Well, thank you.
    As you know, I represent Dallas, which is the home of one 
of the Nation's largest motorcoach operators in the United 
States, called Greyhound.
    Mr. Martinez. Uh-huh.
    Ms. Johnson of Texas. In your testimony, you speak of the 
importance of working cooperatively with our industry and 
safety partners to maintain the safest transportation system 
possible.
    In addition to that, I have one of the largest 
transportation locals in the country, because we are a major 
trade area with a lot of truck traffic.
    So I would like if you would speak to more of the 
coordination with industry partners, such as Greyhound, and 
detail some of the examples of where the industry is doing well 
and other things that need to be improved.
    Because even with the automobile manufacturers I have been 
in touch with--and they are going to keep up with the market. 
And so this might hit us faster than we think, and especially 
in my particular area.
    Mr. Martinez. Thank you.
    So I will address specific to automated vehicles and 
dealing with those industry partners. But I will say that we 
have a very good relationship with the associations of which 
Greyhound, I know, is a member, so certainly the American Bus 
Association, United Motorcoach Association, National 
Association of Motorcoach Operators, International Motorcoach 
Group. And then we also deal with some of the groups that are 
not--you know, faith-based organizations that have buses, tour 
organizers, conference planners, things like that.
    In my short time in this position, I have met with 
Greyhound but also with some of the other major operators. I 
come from a State, in New Jersey, where we are on a corridor, 
that 95 corridor, where buses are up and down there all the 
time, and I will say this: Bus transportation in the United 
States is safe. I encourage it. And we have a very good working 
relationship to maintain that level of safety, because it is 
good for their business, as well, to say, we have, you know, a 
sterling reputation in safety.
    So we will continue that as this technology moves forward. 
Because, as I said earlier, they are incorporating a lot of 
this automated technology into their vehicles now. We don't 
necessarily have to wait for the fully autonomous vehicles. And 
I think that makes the driving a little bit easier for drivers, 
and it should make the passengers a little bit more at ease.
    Ms. Johnson of Texas. Thank you. My time has expired.
    Mr. Graves of Missouri. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Martinez, thank you for being here.
    I understand late last year the FMCSA's online National 
Registry of Certified Medical Examiners was compromised, and it 
was forced to be shut down for a period of time while the 
agency investigated the hack. I was made aware of this when a 
constituent reached out to my office after being unable to 
access the registry.
    Can you explain to the committee what exactly happened and 
provide an update on the status of the online registry?
    And were there any lessons learned that we can share with 
other agencies to help prevent other databases from being 
compromised in the future?
    Mr. Martinez. Thank you for that question.
    There was an unauthorized attempt to access the National 
Registry. As it is described to me, somebody attempted to get 
in the front door, and they got, you know, through the screen 
door but didn't get into the system itself, so they were not 
able to access any personally identifiable information, PII. 
But, nevertheless, that was a clear sign for us that we had to 
be careful.
    All of these types of systems, whether it is in FMCSA or 
other Federal agencies or in the private sector, unfortunately 
there is an active community of hackers that are out there. And 
you don't know exactly what they are going for, but, certainly, 
personally identifiable information is something that is a 
primary target.
    Currently, we have stood up kind of a manual workaround. It 
is not ideal, and I know that it is not ideal, because when I 
went to see my doctor, who actually does this, she complained 
to me just last week that it is a little bit cumbersome. And I 
promised her, as I promise you, we want to get this up and 
running and fully functional as quickly as possible.
    It is a great idea. It facilitates doctors participating in 
this program. But we are not going to stand this up fully until 
we are assured of the safety. So, currently, we are working 
with the Department's IT lead and outside vendors to ensure 
that the next iteration will be safe.
    Mr. Davis. So when you say ``quickly,'' you got any 
estimates in time?
    Mr. Martinez. I believe it is a matter of months. It will 
be short term, but we are making progress every day, and we are 
getting updates every day from our vendors and from our 
partners at the Department.
    Mr. Davis. I won't ask you to be any more specific, but can 
you please keep my office apprised of the progress? And I would 
encourage you to make the months a smaller amount of months 
rather than a few extra months.
    Mr. Martinez, one of the more positive safety trends I have 
seen is the decrease in bus-related fatalities over the past 40 
years. In fact, since the mid-1970s, we have more than doubled 
the number of buses on the road, nearly tripled the number of 
bus miles traveled each year, and yet decreased the number of 
bus-related accidents by 30 percent. And, in 2016, we had the 
second lowest number of bus-related accident fatalities since 
1975.
    What do you attribute this positive trend to?
    Mr. Martinez. I believe, as I kind of alluded to in a 
previous response, a very close working relationship with 
industry. They know what we are looking for. They are better 
prepared.
    Frankly, you know, as a regulatory agency and working with 
our State partners, we really don't want to write violations. 
We would prefer that everybody know exactly what is required. 
And I believe that that has been adopted by the major carriers, 
certainly the associations.
    So we do training work with all the associations. We work 
very closely with the operators around the country. And we take 
it seriously because, obviously, it is not just a commercial 
motor vehicle, but it is a commercial motor vehicle that is 
transporting people.
    But I believe it is the combination of education, continued 
enforcement efforts that are uniform, and, I believe, 
improvements to the vehicles themselves, the engineering and 
the safety improvements to the vehicles over the years.
    Mr. Davis. Well, Mr. Martinez, again, thank you for your 
time. Thanks for being here.
    And I will yield back the balance of my time.
    Mr. Graves of Missouri. Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman, and to the ranking 
member, for holding this hearing today.
    And, Mr. Martinez, thank you for being here.
    The Port of Newark I am sure you are familiar with, you 
know, a key component of the largest seaport on the eastern 
seaboard, is located in my district. Thousands of trucks carry 
billions of dollars of goods through there every year. Yet, at 
this critical port, as across the country, there is a severe 
shortage of truck drivers. And this is in a city with an 8-
percent unemployment rate.
    And I know you were previously chief administrator of the 
New Jersey Motor Vehicle Commission--we still call it the DMV--
so you are, no doubt, aware of the State's particular problems 
in this regard.
    I know you have been asked this question about the truck 
driver shortage in the past, but I would really appreciate if 
you would speak about it at this point. You know, since you 
have formerly been head of a State agency that licenses 
drivers, could you speak to that?
    Mr. Martinez. Certainly.
    And I am glad that you mentioned, you know, the unique, or 
somewhat unique--about the Port of Newark there. I was just 
visiting one of the major transportation companies that 
operates out of Elizabeth--major trucking companies--just last 
week. And as I go around the country, I talk to companies and 
associations, and they are like, ``We need more drivers. We 
need more drivers.''
    And part of the way--obviously, it is good for the drivers 
that are currently in the market, because they are getting some 
incentives to join. One of the incentives that I believe 
industry is already providing is, ``Hey, we are a safe 
operator. We will work with you in terms of your schedules.''
    But there is a shortage, and so how do you expand that 
population? And you put the second piece in there about, if we 
have folks, particularly younger folks, who are unemployed, we 
deserve to look at that. I really do believe that deserves a 
hard look.
    Now, we are moving forward with the military driving pilot 
program, and we hope to get some good information from that 
that will advise us on how to move forward. But, obviously, if 
Congress chooses to go forward, we would like to work with 
Congress on whatever suggestions you might have.
    Mr. Payne. OK.
    So, in terms of that, I mean, you know, I know it is--get 
into private industry and businesses. But how do we incentivize 
opportunities for people to even approach that as a potential 
career?
    Mr. Martinez. Right. Well, one of the things that I just 
kind of alluded to is some people think that commercial motor 
vehicle driving is kind of going to be a dying career. It is 
not. We are going to have commercial drivers for a very, very, 
very long time, and we need more of them.
    And we need to say, even with all this automation that we 
are talking about, you are not going to have fully autonomous 
vehicles, you know, next year. Certainly, testing would be 
occurring. But make that work somewhat more attractive. The pay 
is certainly good.
    I know that some of the major corporations are actually 
beginning by training, bringing on those younger drivers for 
intrastate driving, not interstate driving, and starting on 
smaller trucks, keeping them in training programs, and 
encouraging them that this is a career, it is not just a job 
for the summer. And then they realize that they could spend a 
lifetime in a very, very good career.
    Mr. Payne. OK. All right. Well, thank you for your time.
    And I will yield back, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Graves.
    Mr. Graves of Louisiana. Thanks, Dad.
    I first want to congratulate you. Secondly, I know you have 
some strong Cajun blood in your organization, and so the 
expectations for your agency have significantly increased.
    You all maintain the Safety Measurement System score, and 
that is an important tool to help to inform, I think, a lot of 
folks about the safety and the ability of different drivers, to 
point out situations when you have drivers that are unsafe. But 
I do have a concern in terms of how that score is put together.
    The score, as I understand it, how it is put together right 
now, would include factors that don't have anything to do with 
the actual drivers, in some cases. You may have infrastructure 
failure. You may have an at-fault driver that is driving under 
the influence, that may be going the wrong way down a one-way 
road, that may actually hit an unattended truck that is parked 
legally. Yet that will affect the SMS score of a driver.
    You are right now working on a demonstration program, the 
Crash Preventability Demonstration Program, to help, I think, 
tease out some of those, perhaps, crashes or incidents that 
don't really inform anyone about the true safety of a driver. 
Can you give us an update on how that is going?
    And I just want to reiterate the importance of this. I 
think the SMS score is very important, but if we are sending 
inaccurate information or if we are setting an inappropriate 
baseline or average, then it is sending distorted information 
and distorted safety information, which could actually be 
concerning.
    Mr. Martinez. Correct.
    And, as I have mentioned before, it is that, you know, what 
data are we actually using. I think the industry correctly 
pointed out that, you know, let's look at this and drill down. 
And I believe that this crash preventability pilot program has 
actually been informative to the FMCSA.
    We recognize industry's concern about these, quote/unquote, 
``not preventable crashes.'' Over 3,700 crashes of that nature 
have been submitted so far, most of which we determined to be 
not preventable by the motor carrier. And so that is a 
fairness.
    And I think that what we have done through this project is 
to say, let's use two scores here, full transparency. So, in 
evaluating this, we had 1,657 that were deemed not preventable. 
To your point, something falls from a bridge and hits the 
truck, or a truck is legally parked and somebody crashes into 
it, those are not preventable. And so what we do is we provide 
an alternate score to the company or the driver to say, well, 
this is what your score would look like with that included and 
without.
    I believe, in total, requests for review were submitted by 
about 1,300 different companies. So we think this is useful. I 
think it is a good first step to just be fully transparent. And 
we will continue the conversation with industry.
    Mr. Graves of Louisiana. Great. Thank you.
    Mr. Chairman, I yield my remaining time to Mr. Babin.
    Dr. Babin. Thank you. Thank you, Mr. Chairman.
    And I thank you, Mr. Graves.
    I would like to put up a slide on there. I don't know if 
anybody can see that or not. But this actually is a summary of 
actions taken to give relief or not from the electronic logging 
device mandate over the past year.
    Last November, I delivered a letter and a speech--by the 
way, Mr. Chairman, I would like to submit it for the record--
asking the administration for a 90-day waiver for all sectors 
of the trucking industry before the mandate went into effect on 
December the 18th. Unfortunately, the top one, the answer was 
``no'' for all sectors.

        [Congressman Babin's letter to President Trump is on pages 132-
        134.]

    Dr. Babin. Other sectors have had better luck, Mr. 
Martinez.
    And, by the way, it is good to get to meet you in person, 
since you and I have spoken on the phone several times.
    Other sectors have had better luck. The Motion Picture 
Association of America, MPAA, doesn't have to worry about ELDs 
for 5 years. The same with the California private company Rail 
Delivery Services, as you can see. Other waivers and exemptions 
have been granted for truck rental companies, package delivery 
services, cattle and insect haulers. And the list goes on and 
on.
    But there are two pending exemptions down here that I would 
like for you to see, requests that I strongly support, and a 
number of my colleagues do as well: OOIDA's [Owner-Operator 
Independent Drivers Association's] request for a 5-year ELD 
waiver for small trucking fleets with excellent safety records; 
and then the Agricultural Retailers Association request to be 
included with their ag industry counterparts in the 150-aerial-
mile exemption.
    Is FMCSA going to give them the same good treatment as they 
gave Hollywood film studios and grant these exemption requests?
    And I also would add, is it true that the Motion Picture 
Association of America--does that include adult films as well?
    Mr. Martinez. Well, I don't----
    Dr. Babin. Does it include that industry?
    Mr. Martinez. Pardon me?
    Dr. Babin. Does it include that industry as well?
    Mr. Martinez. I honestly don't know that, but I would be 
happy to respond through the Chair, if that information is 
actually available to us.
    Dr. Babin. All right. Well, if you would respond to that 
question, I would just ask you about the two pending ones.
    Mr. Martinez. Certainly.
    And all of these requests for waivers or exemptions are 
evaluated on their own. And there have been a substantial 
amount of requests for waivers or exemptions to the rule. Many 
of these are still pending. It is unfortunate that it is taking 
time to evaluate them, but they are all evaluated on their own 
merit, and I hope that we will have answers on all of these 
shortly.
    The one that you refer to from the Motion Picture 
Association of America--and what you find is that the trucking 
industry is very, very segmented. Many of them have particular 
issues and concerns. When looking at a request for a waiver or 
an exemption, it is geared towards, OK, when will you come into 
compliance? What is the timeframe for coming into compliance?
    So that is one of the threshold questions. And so those who 
apply for that should come with a reasonable timeframe, or join 
that with, what are you doing now that currently meets or 
exceeds existing safety standards that would essentially match 
what is required by an ELD?
    And so, with the motion picture industry--and I am not that 
familiar with that waiver, but I will tell you that, as I am 
advised, it is a very unique industry, where the drivers work 
for multiple companies in the course of a day, using multiple 
vehicles during the course of a day. They do not drive for much 
of the day; they are actually working on set.
    In order to meet the requirements that we would usually get 
from an ELD, they actually use a third-party evaluator that, 
each day, goes through that driver's, that employee's record 
and says how many hours they were driving, for whom, and such 
and such.
    And with that, also, the industry basically said, we are 
looking to be compliant, and we hope to do so if we can find a 
vendor that can work with the particularities of our industry. 
And I guess that argument was found compelling by my 
predecessor.
    Dr. Babin. Well, you know, all of our sectors of our 
trucking industry are unique.
    And, Mr. Chairman, can I reclaim my time that I was going 
to get before it was yielded to me?
    Mr. Graves of Missouri. No, because we did two--we went way 
over.
    Dr. Babin. You did? OK. All right.
    Mr. Graves of Missouri. Mrs. Lawrence?
    Mrs. Lawrence. Thank you.
    My question is on the issue of mandatory driver's training. 
The Moving Ahead for Progress in the 21st Century Act, or MAP-
21, which was signed into law by President Obama in 2012, 
required the Federal Motor Carrier Safety Administration to 
establish minimum training requirements for individuals seeking 
a commercial driver's license, or a CDL, including behind-the-
wheel training.
    Safety groups and labor organizations and owner-operators 
have all expressed support for a mandated number of minimum 
hours of behind-the-wheel training.
    Is your agency currently working on issuing a rule to 
mandate enhanced driver's training? And, in your opinion, is 
there a need for mandatory driver's training?
    Mr. Martinez. The entry-level driver training rule, as it 
is called, is an example of what is a labor-intensive but, we 
think, beneficial process that is called negotiated rulemaking. 
It has included representatives from the trucking industry, 
bus, insurance industry, State law enforcement, State licensing 
agencies, and safety advocacy groups to come to some consensus 
about how we move forward to both incorporate mandatory 
training--because we all agree that that would be a good thing 
in the commercial vehicle space.
    The minimum number of hours, which I think is the nut of 
your question, was not included in the final rule, but we do 
think that it is important that entry-level drivers obtain this 
mandatory training. And that is scheduled--we are on target for 
January of 2020, where CDL applicants will have to obtain 
entry-level driver training from registered training providers 
who comply with the FMCSA's training standards. And State 
driver licensing agencies must confirm completion of that 
required training before they issue or upgrade a license. I 
think that is a great first step.
    What we heard back during the discussions was that--and 
this is a lot from the schools and the companies. They say, 
look, you may get some drivers that are really prepared, so an 
arbitrary timeframe is not really helpful. Some drivers may 
require more training; some require very little. And I can tell 
you, as a motor vehicle commissioner, we see that in the 
testing, that some people come in very well-prepared and able 
to pass the exams very quickly, and in other cases it takes 
multiple tries.
    So I think this is a good first step.
    Mrs. Lawrence. So, to be clear, in 2020, will it be goal, 
progress training? So if you meet the objectives, you have 
completed? Or will it be the mandatory number of hours in 2020 
that would be mandated?
    Mr. Martinez. What is mandated would be that you take the 
entry-level training from a registered training provider----
    Mrs. Lawrence. Yes.
    Mr. Martinez [continuing]. Not a minimum number of hours.
    Mrs. Lawrence. Thank you.
    Mr. Graves of Missouri. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    A couple things. The first I want to touch on--first of 
all, thank you, Mr. Martinez, for appearing today and for your 
recent help on issues we have been all working on, especially 
to do with ELDs and rural trucking.
    Please touch a little more on what was brought up a bit 
earlier with veterans. I mean, veterans need jobs, and we have 
a trucker shortage. And so a couple of my colleagues were 
talking about the differences in the rules.
    What I am drilling down to here is the FAST Act created a 
pilot program where those between 18 and 21 can operate 
interstate. And my colleague stated really well about how in 
California you go 500 miles and not cross the State line and 
you cross six States on the east coast.
    So how are things coming, again, for being able to plug 
those below-21-year-old veterans that may be available for that 
market, you know, solving veterans jobs and shortage of 
trucking jobs with others that might have a pretty decent 
amount of experience in that short amount of time but it may be 
from the military? How are we doing on implementing that, 
please?
    Mr. Martinez. So, again, this was a congressional mandate, 
and we welcomed it because I think everybody agrees that those 
coming out of the military should be able to transition to 
civilian jobs, and this is a great career for those with the 
appropriate training in the military.
    So we are currently completing our information collection, 
and we then will have to present that to the Office of 
Management and Budget for approval on the scenario for how we 
continue to collect data after the program is stood up.
    I am hoping that this program will be stood up early next 
year and that we will immediately begin getting information on 
that group. So it will be helpful because we will be able to 
have military personnel exiting into this new career, and the 
Government will be able to get data that we can then use to go 
forward to see whether this can be expanded to others in the 
population.
    Mr. LaMalfa. OK. OK. It was in something called the FAST 
Act, so I hope we get, you know, fast results. Thank you.
    Shifting to the issue--and, again, I thank FMCSA for 
getting to a relief. Also, one of the good things that was 
contained in the omnibus was some immediate relief, and then a 
little longer term, for livestock. And how that runs up against 
the problematic ELD device, again, for what Mr. Babin was 
talking about. You know, it just doesn't work so well for rural 
folks, mom-and-pop, all that.
    And so, as we are getting down to the ELD mandate--and he 
already took a shot at the Hollywood movie folks. And I think 
he even said something about adult films, but I won't go there. 
But they are getting their relief; a couple others are.
    But, I mean, you know, Mr. Martinez--and, again, you have 
been very helpful, but just for the record here, you agree that 
hauling livestock is a heck of a lot different than hauling a 
lot of other products, you know, whatever inanimate objects 
might be on a truckload, right? The challenges they face with 
weather and heat and all that, right?
    Mr. Martinez. Indeed. Yes.
    Mr. LaMalfa. OK.
    So what we have is really three issues here: the driver, 
the other drivers on the road, and the animals that you have in 
the trailer.
    So, as statistics have shown when we have made this 
argument in recent months, livestock haulers already have a 
greater responsibility than a lot of other issues, and so, with 
that, a very strong, strong safety record. So we won't debate 
that either. I think that is pretty clear.
    So the current hours-of-service regulation in the ELD 
mandate, is that even capable of understanding the flexibility 
that is needed to properly, safely transport livestock, some of 
it very long distances, you know, from where they are raised to 
where they need to go?
    Mr. Martinez. I will say that we are actively engaged in 
discussions with the agricultural transport sector and 
specifically livestock haulers. As you know----
    Mr. LaMalfa. But on paper, though, is the mandate--I mean, 
I appreciate the discussions. I do.
    Mr. Martinez. Yes.
    Mr. LaMalfa. But when we are getting down to legal terms, 
words on paper, et cetera, is there flexibility--is there the 
capability to even understand what that means, that can be 
flowed out? Is there a rulemaking, regulatory-making, that can 
flow from that that really takes into account the flexibility 
that is truly needed when you have animals in a trailer and, 
you know, the need to get from A to B without having to race 
ahead of what--you know, because you are hearing these stories 
now, racing ahead of when that ELD slams the door on you--
    Mr. Martinez. Uh-huh.
    Mr. LaMalfa [continuing]. Speeding, cutting corners, 
whatever, because you are going to be in a bad way.
    Mr. Martinez. Yes.
    Mr. LaMalfa. Do you really think they have the flexibility 
to do that?
    Mr. Martinez. Well, obviously, this is an area that very--
in the past, Congress has specifically exempted livestock 
haulers or certain agricultural haulers from some requirements.
    In this instance, of course, FMCSA has provided a waiver 
through June 18. The livestock transporters specifically have 
been--enforcement on them has been exempted through the 
remainder of the fiscal year.
    We continue conversations, but we also have specific 
guidance that will be forthcoming shortly that will provide 
some additional flexibility to this industry.
    And I think that within the current existing regulations, 
agriculture in general has some exemptions or some rules that 
they play by that, when we meet with many of these groups, they 
realize, ``Well, you know, I don't even think ELD applies to 
me.''
    And so, much of what we have to do is continued outreach 
and education and flexibility because of the unique nature of 
their sector. Of course, we are all concerned about safety. 
They have to share the road; they have to be safe. I believe 
that, with continued work together, we can get there.
    Mr. LaMalfa. So we have that commitment from you on getting 
to a real solution then.
    Mr. Martinez. Yes.
    Mr. LaMalfa. OK. Well, I do appreciate it. And, again, you 
have been very helpful in listening to me and my colleagues on 
that leading up today. So I appreciate, you know, the breathing 
room. And October 1 is great, but that is going to be upon us 
before we know it too.
    So, anyway, thank you very much.
    I will yield back, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair.
    Mr. Martinez, thank you for being here and sharing with us 
your thoughts.
    You know, I am going to follow back up on an amendment that 
passed in the FAA bill that preempted my State, California's 
labor protections for truck drivers that were engaged in 
interstate commerce.
    You know, I come from Washington after serving in the 
California Legislature, and sometimes I feel that we spend more 
time here talking about California's labor laws than we did, 
actually, in California talking about California.
    But proponents of the amendment claim that no intrastate 
drivers, those transporting a load entirely within California, 
will be affected by this preemption. That is what they said, 
but I am not sure I really believe this.
    In my district, which I represent the Port of Long Beach, 
every day, truckers transport goods from our ports to inland 
distribution centers. That goes on all the time. These trips 
take place entirely within California. But the cargo is from 
overseas trade, bound for destinations across the country.
    So my question is, under the FMCSA's definitions, are these 
drayage trips considered interstate commerce subject to a 
Federal preemption or not?
    Mr. Martinez. Congressman, that is an interesting question. 
And I guess, following the logic, I would still say that, 
because it is completely intrastate, it is not subject to that. 
However, it is a legal question, and it is one that I would 
have to----
    Dr. Lowenthal. Could you get back to me on that?
    Mr. Martinez. Through the Chair, I would be happy to do 
that.
    Dr. Lowenthal. Because that is really a critical--you know, 
because those goods are going across State lines, ultimately, 
and coming from foreign----
    Mr. Martinez. I will get back to you through the Chair. 
Thank you.
    Dr. Lowenthal. Thank you.
    The next question I have is that, a year ago, Ranking 
Member DeFazio and I both asked Deputy Administrator Jefferson 
about reported labor abuses in the drayage industry at the 
ports of Long Beach and L.A. In response to our questions, 
FMCSA replied that, since the coercion rule went into effect in 
2016, only one carrier has been fined for a violation of the 
rules. One violation out of over 600 complaints.
    Administrator Martinez, can you update the committee on the 
effects of this rule? Have more investigations been completed 
or more violations found in the past year?
    Mr. Martinez. Yes. And it is an area that needs continued 
work, because our latest statistics indicate that we have 
received almost 550 coercion complaints. But, as you will 
imagine, some of them are simply complaints. They don't rise to 
a level of what would meet the definition of coercion. We have 
had some, I would say, enforcement actions, but only in the 
dozens.
    What we do need, frankly, is to better advertise the fact 
that companies and individuals, drivers, can complain to us 
through our website, which is FMCSA.DOT.gov. We look for this 
type of information, and we look for some cases that are ripe 
for investigation and enforcement action. But we haven't seen 
those as yet.
    Dr. Lowenthal. So what you are saying is you have had 550 
complaints, that the actual violations out of that were found 
to be in the dozens maybe. How many----
    Mr. Martinez. It is actually 950, sir.
    Dr. Lowenthal. What?
    Mr. Martinez. I'm sorry. It's 950 complaints.
    Dr. Lowenthal. So, out of 950, 20, 25 or so, in the dozens.
    Mr. Martinez. Yes.
    Dr. Lowenthal. And how many of those were fined?
    Mr. Martinez. I don't know what the nature of the 
enforcement is. I don't have that information, but I would be 
happy to provide it. It could be any number of----
    Dr. Lowenthal. Because for those of us on the ground in 
that area, this seems so incredulous, that there are not more 
bad actors actually found. You know, drivers in California 
prevailed in hundreds of complaints before the State's labor 
commission against port trucking companies. So we have hundreds 
of them in California and just a handful here at the Federal 
level. It doesn't make any sense to me.
    Mr. Martinez. I agree. And I am interested in this issue, 
particularly--essentially, in this coercion rule, we are trying 
to protect the integrity of what we all are working for, to 
keep the drivers and everybody that shares the roadway safe 
from being forced to do things that are against the law or 
against regulation.
    So I couldn't agree more, and we are going to remain 
focused on this. We hope that drivers and companies will report 
this, and we will investigate them. We will investigate every 
single one.
    Dr. Lowenthal. Thank you.
    And I yield back.
    Mr. Graves of Missouri. Thank you.
    And, with that, I want to thank you, Mr. Martinez, for 
being here.
    And we will recess for a few minutes just to seat the next 
panel.
    Thank you very much.
    Mr. Martinez. Thank you.
    [Recess.]
    Mr. Bost [presiding]. I would like to welcome our second 
panel: Mr. Dale Krapf, chairman, Krapf Group; Mr. Mike 
VanMaanen, owner of the Eastern Missouri Commission Company, on 
behalf of the Livestock Marketing Association; Captain 
Christopher Turner, president of Commercial Vehicle Safety 
Alliance; and Ms. Jennifer Tierney, board member for Citizens 
for Reliable and Safe Highways, on behalf of the Truck Safety 
Coalition.
    Mr. Krapf will be along shortly.
    Since your written testimony has been made a part of the 
record, the committee requests that you limit your summary to 5 
minutes.
    And, Mr. Krapf, you are going to be recognized first, if 
that is all right. So I would like to recognize you for 5 
minutes for your opening statement.

 TESTIMONY OF DALE N. KRAPF, CHAIRMAN, KRAPF GROUP, INC.; MIKE 
   VANMAANEN, OWNER, EASTERN MISSOURI COMMISSION COMPANY, ON 
    BEHALF OF THE LIVESTOCK MARKETING ASSOCIATION; CAPTAIN 
  CHRISTOPHER J. TURNER, PRESIDENT, COMMERCIAL VEHICLE SAFETY 
  ALLIANCE; AND JENNIFER TIERNEY, BOARD MEMBER, CITIZENS FOR 
   RELIABLE AND SAFE HIGHWAYS, ON BEHALF OF THE TRUCK SAFETY 
                           COALITION

    Mr. Krapf. Chairman Graves, Ranking Members Norton----
    Mr. Shuster. You want to pull that mic closer to you. It 
bends down too. There you go.
    Mr. Krapf [continuing]. Ranking Member DeFazio, members of 
the subcommittee, on behalf of the Krapf Group and the 
schoolbus and motorcoach industry I proudly represent, thank 
you for calling this hearing today.
    Having just celebrated our 75th anniversary, the Krapf 
Group is a family owned and operated passenger transportation 
business established in 1942 by my father, George Krapf, Jr.
    Along with representing the Krapf Group today, I am also 
representing the views of the National School Transportation 
Association [NSTA] and the United Motorcoach Association [UMA].
    The FAST Act contains critical policy elements that have 
begun to correct regulatory overreach that was suffocating 
investment, growth, and employment in the schoolbus and 
motorcoach industry but has done little to improve safety.
    A few highlights from my written testimony:
    The halting of the former administration's push to increase 
minimum financial responsibility limits without evidence of 
inadequacy or understanding of its impact was of the utmost 
importance. Absent your action, the moves would have devastated 
both the private schoolbus and motorcoach industries and the 
public we serve.
    Both NSTA and UMA support a provision in H.R. 2120, Buses 
United for Safety, Regulatory Reform, and Enhanced Growth for 
the 21st Century Act, introduced by subcommittee member 
Representative Scott Perry, that would return the establishment 
of minimum insurance limits to Congress.
    CSA reform is another important provision in the FAST Act. 
We trust FMCSA is incorporating the National Academies of 
Sciences, Engineering, and Medicine's recommendations, and we 
seek more opportunities to contribute to the finished product. 
We hope any new process will represent an accurate, fair 
assessment of motor carriers and be an effective tool for 
identifying those motor carriers in need of intervention.
    An issue near and dear to my heart relates to how accidents 
are reported on the Federal level, Federal records, in which 
the motor carrier contributed nothing to the accident. This 
happened to my company, and we endured the indignity and the 
loss of business by the display of erroneous information.
    I am pleased to report that, as a result of the passage of 
the FAST Act, FMCSA finally established a procedure for 
removing those crashes that were not preventable by the motor 
carrier but for which the motor carrier had no fault.
    The FAST Act also allowed FMCSA discretion to continue 
displaying inspection information for motorcoach operation. 
FMCSA extended that discretion to all passenger carriers, 
including schoolbus operations, in violation of the specifics 
of the statute.
    Congress and industry mutually agree that the current CSA 
program is flawed and not a valid tool for consumers to make a 
credible safety evaluation of a particular company, which can 
lead to unfair and flawed perspectives on that particular 
company.
    My own company has experienced a loss of business because 
of the unnecessary decision. UMA and NSTA seek this 
subcommittee's assistance to correct this injustice and move 
information on passenger carriers from public view until all 
CSA reforms have been dictated by the FAST Act are completed. 
This provision is also included in H.R. 2120.
    Additionally, we applaud the inclusion of the provision 
addressing the process of new entrant application. We are 
pleased to report the process that has previously taken 4 to 6 
months, often even longer, has returned considerably to less 
than 30 days. We hope that this change will result in our 
industry seeing new life and begin to grow once again. The FAST 
Act mandates that motorcoaches be afforded equal access to toll 
facilities and high occupancy lanes. We should seek support 
from Congress to instruct the Federal Highway Administration to 
require all public authorities to set out the rates, terms, and 
conditions for use of the facilities that they applied to 
public transit and motorcoaches.
    Mr. Chairman, Ranking Member Norton, important motor 
carrier policy enacted in the FAST Act were just in the nick of 
time. The Nation needs and deserves a thriving passenger 
carrier industry supported by regulations that actually improve 
safety. Thank you.
    Mr. Bost. Thank you, Mr. Krapf. Mr. VanMaanen, you are 
recognized for 5 minutes.
    Mr. VanMaanen. Chairman Graves, Ranking Member Norton and 
members of the subcommittee, thank you for inviting me to 
testify. We appreciate that perspectives from agriculture were 
sought regarding the interactions with the FMCSA, which is 
authorized by the FAST Act. My name is Mike VanMaanen. My 
family and I own and operate the Eastern Missouri Commission 
Company, and the Missouri Valley Commission Company, which are 
located in Bowling Green and Boonville, Missouri. I am 
testifying today on behalf of the Livestock Marketing 
Association. LMA represents livestock markets across the United 
States. Livestock markets serve as a hub together and sell 
livestock from farmers and ranchers in a competitive bidding 
environment. I market these livestock to buyers gathering loads 
to be shipped to the next part of the production chain. This 
movement is entirely dependent upon the use of a very limited 
population of highly skilled drivers who tend to be independent 
on our operators. Rigid hours-of-service requirements do not 
work well for hauling live animals.
    We appreciate the recognition of the Congress and the 
agency that livestock hauling is unique, and look forward to 
continuing to work together to find solutions for this targeted 
segment of drivers.
    Livestock auction markets, farmers and ranchers are 
particularly impacted by the transportation laws and 
regulations. Many animals not born in the center of the country 
must be trucked many miles to lush grasslands and feed yards in 
the Midwest and Southern Plains. These cattle must be shipped 
quickly and safely. Time is everything for the well-being of 
the animals being transported. The key is safely hauling live 
animals, especially in times of great heat and humidity. This 
is to stop as infrequently as possible and to keep the trailer 
moving to provide proper ventilation.
    The majority of the livestock hauls can be concluded within 
the timeframe outlined by the hours-of-service regulation. 
However, unfortunately, for livestock located in or heading to 
States outside the center of the country, this is not the case. 
When a driver runs out of time while hauling live animals, they 
are given the grim prospect of unloading the livestock or 
leaving them on the trailer for a 10-hour stretch to suffer 
from the elements, lack of ventilation, and possible injuries. 
Simply unloading the animals for 10 consecutive hours to rest 
is also not a good option. First, there is often nowhere to 
unload them; there are no pen systems available along the major 
American highways, and owners of the pens, feed yards and 
livestock markets are extremely hesitant to accept livestock in 
transit due to liability, staffing, and biosecurity concerns.
    Even if a location is willing to take animals, unloading 
and reloading those animals has a negative impact on their 
well-being. In fact, it is more stressful than the effect of 
transport itself.
    Our drivers value both motorists and live animal safety. A 
livestock hauler is forced by nature of their cargo to drive 
slower and more cautiously than the conventional cargo hauler, 
because the live animals move throughout the trailer and can be 
severely injured if the driver turns too suddenly, drives too 
fast or stops too quickly. Safety is so important to the 
livestock industry that many livestock haulers have 
participated in additional specialized training.
    Due to all of this, livestock haulers boast a fantastic 
safety record. National studies show that far less than 1 
percent of the accidents involved livestock transporters. With 
this great track record of safety in mind, American agriculture 
needs some relief. The current hours-of-service requirements 
provide a too rigid, one-size-fits-all framework. This, 
combined with the unforgiving nature of electronic log devices, 
will result in cattle on the coast and in the Southeast being 
severely discounted, or even worse, wholly unprofitable to 
raise. Not only will this lead to farmers, ranchers, and 
livestock haulers dropping out of business, it will be felt in 
the very real way by the American consumer trying to put an 
affordable meal on the table. The hours-of-service framework 
needs to be changed with respect to live animal haulers. These 
individuals need more flexibility in order to safely get their 
live cargo to its destination. The LMA sincerely appreciates 
the several members of this subcommittee for their assistance 
and diligent work towards safe and practical solutions for our 
Nation's livestock haulers.
    Thank you.
    Mr. Bost. Thank you. Captain Turner, you're recognized for 
5 minutes.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank 
Chairman Graves, Ranking Member Norton and members of the 
subcommittee for inviting me to participate in today's hearing. 
My name is Chris Turner and I am in charge of the Kansas 
Highway Patrol's Motor Carrier Safety Assistance Program 
[MCSAP] and president of the Commercial Vehicle Safety 
Alliance, representing State agencies to enforce commercial 
motor carrier safety regulations in the U.S., Canada, and 
Mexico.
    To start, today's topic is particularly timely given that 
we are midway through the current highway bill, and I want to 
thank you for your ongoing commitment to improving CMV safety. 
And I would also like to thank Administrator Martinez. I have 
had the opportunity to meet with him recently on several 
occasions, and I have been impressed with his knowledge, 
willingness to listen, and commitment to FMCSA's mission of 
saving lives. We look forward to working with him and his team.
    When considering FAST Act implementation, we recognize a 
growing trend within the agency, and it is a lack of progress 
on critical issues. While FMCSA has made headway on components 
of the FAST Act, work remains to be done on a number of key 
requirements, including finalizing a new MCSAP grant formula, 
and improvements to the agency's IT and data systems. The issue 
also affects grants and State programs. Between the 
appropriation delays and the approval process at DOT, it takes 
so long for the funds to be disbursed, the States sit idly by, 
unsure of how much funding they will receive and when. 
Meanwhile, regulatory activity at the agency, FMCSA's core 
responsibility, has come to a near standstill, with a growing 
backlog of rulemaking and petitions. For example, in 2016, 
FMCSA sent a letter to a member of the broadband service 
industry indicating that wireless and broadband services 
qualify under the public utilities hours-of-service exception. 
CVSA [Commercial Vehicle Safety Alliance] petitioned the agency 
in May of 2017 to update the regulations making it official. In 
March of this year, the agency granted the petition. Yet, we 
are still waiting for the rulemaking to be initiated. And this 
is for a simple update to a definition.
    It is critical to both the enforcement community and motor 
carrier industry that the Federal safety regulations are clear, 
that they are effective and enforceable. No matter where you 
stand on the role of Government and regulation, we should all 
be able to agree that maintaining the regulations, keeping them 
current and clear is a necessary and important function.
    Because the agency cannot move forward with rulemaking, 
they have come to rely heavily on interpretations, personalized 
letters, electronic communications, enforcement guidance, 
frequently asked questions and other means to provide 
enforcement and industry with the clarity they need when an 
issue arises. That is with the expectation that the regulations 
will be updated at some point in the future. Often, that update 
never takes place.
    I want to be clear that this is not meant as a criticism to 
the hard-working people at FMCSA. We understand that they face 
a number of challenges, both internally and externally. A new 
administration means turnover, new leadership and often a shift 
in priorities, as well as a pause in the regulatory work as 
people get up to speed. And also, implementation of the ELD 
rule, for FMCSA has been the agency's top priority. And the 
agency has been plagued with frivolous challenges and meritless 
exemption requests. But it isn't a new issue, it is one that 
has been growing steadily over the years, it is ingrained in 
the culture of the agency and must be addressed.
    We need to make sure that FMCSA has the necessary 
resources, technical staff, authority, and time to meet the 
agency's core responsibility, maintaining the Federal Motor 
Carrier Safety Regulations. And we are hopeful that under 
Administrator Martinez's leadership, we will begin to see a 
shift in the culture at FMCSA.
    And finally, we believe that more can be done to improve 
the coordination with our North American partners. Commerce 
does not stop at our borders, and we have long recognized that 
harmonization between the U.S., Canada, and Mexico benefits 
industry, enforcement, our economy, and consumers.
    As the pace of regulation stalls here in the U.S., our 
partners continue to move forward, and as a result, the 
regulations drift further apart. And inconsistencies in the 
regulations result in inconsistencies in the inspection and 
enforcement process, creating separate sets of rules for 
industry to follow. While the regulations in the three 
countries will never be identical, more can be done to improve 
the reciprocity and uniformity of CMV safety regulations among 
the three nations, which will help support the flow of people 
and goods that fuel our economy.
    Thank you. And I look forward to your questions.
    Mr. Bost. Thank you. Ms. Tierney, you are recognized for 5 
minutes.
    Ms. Tierney. Good morning, Chairman Graves, Ranking Member 
Norton, and members of the subcommittee. My name is Jennifer 
Tierney, and I am a board member for Citizens for Reliable and 
Safe Highways, as well as one of the millions of Americans 
whose loved one was killed in a truck crash. I traveled to be 
here today from North Carolina. My motivation to be testifying 
before you comes from the loss of my daddy, Jim Mooney, and the 
goal of preventing families from suffering preventable truck 
crashes and fatalities and injuries. My dad was in a horrific 
truck underride crash on a dark, back country road when he 
crashed into the side of a jackknifed tractor trailer that was 
blocking the roadway.
    Truck crash deaths and injuries have been dramatically 
rising in recent years. Since 2009, annual truck crash 
fatalities have increased 28 percent. In 2016, 4,317 people 
were killed in truck crashes. And early data for 2017 indicates 
that truck crash fatalities are up another 10 percent. During 
that same time, truck crashes and resulting injuries have also 
risen 475,000 and 145,000, respectively.
    My comments today will focus on policies that can improve 
truck safety, and appropriate steps to implementing and 
enforcing them. The first I would like to touch on is automatic 
emergency braking. It is a proven technology that leading 
trucking companies in other countries have been using for years 
to reduce the number of the crashes their truck drivers are 
involved in; and also, to mitigate the severity of truck 
crashes that do occur.
    In the United States, some motor carriers have been 
voluntarily using AEB for at least 10 years and have 
established, beyond question, its effectiveness and 
reliability. For example, Schneider National, a major trucking 
company, experienced a 69-percent decrease in rear end crashes, 
and a 95-percent reduction in rear end collision claims since 
it began equipping new tractors in 2012. We urge this 
subcommittee to consider the benefits requiring this technology 
can provide.
    A final rule requiring the use of speed limiting technology 
set at 65 miles per hour or lower should apply to all trucks. A 
recent study out of Ontario found that the incidents of heavy 
trucks speeding in a crash dropped 73 percent, following 
implementation of the speed limiter mandate. This study 
directly debunked the claim that speed differentials would lead 
to an increase in overall crashes involving big rigs, finding 
no such evidence of an increase. This lifesaving technology has 
also been a standard component in most trucks' engine control 
modules since the 1990s because so many other countries already 
mandate their use in commercial motor vehicles. As a result, 
most trucks would not require a retrofit, but would, instead, 
need to have their speed limiters set. We urge this 
subcommittee to take action to require speed limiter use by all 
trucks existing and new.
    Truck driving is one of the most dangerous occupations 
according to the Department of Labor. Currently, there is no 
minimum requirement for behind-the-wheel training hours. We 
urge this subcommittee to require FMCSA to modify the entry-
level driver training to include a minimum behind-the-wheel 
training requirement.
    Truck underride crashes can be catastrophic. Unfortunately, 
I know that all too well, because the car goes under the 
trailer, bypassing the crumple zone and airbag deployment 
safety features; in severe collisions, the passenger 
compartment intrusion occurs. A requirement for all trucks and 
trailers to be equipped with energy absorbing rear and side 
underride guards would protect car occupants from underride 
crashes.
    We are very grateful today to subcommittee member 
Representative Cohen, for introducing the Stop Underrides Act, 
and also to Representative DeSaulnier and other Representatives 
on the subcommittee who are cosponsors. We are also thankful to 
Senators Gillibrand and Rubio for introducing the Senate 
version. This lifesaving legislation will strengthen rear 
underride guards, mandate side underride guards, and require 
proper maintenance of these guards. We urge subcommittee 
members to join this bipartisan effort.
    An electronic logging device is a critical safety 
technological device to ensure compliance of Federal hours-of-
service rules. Attempts to delay, weaken or reverse the effort, 
or to allow exemptions for special industry or special 
interests to the ELD rule should be swiftly and soundly 
rejected.
    During a time when truck safety is in serious decline, 
increasing truck size or weight or limiting shipper and broker 
liability would be steps in the wrong direction. The DOT has 
not offered significant solutions to address the rising number 
of truck crashes. At the same time, the administration has 
already withdrawn two rulemakings and delayed four, all of 
which would have improved safety.
    Moving forward, I am hoping that members of the 
subcommittee will prioritize safety and remember that death and 
injury figures are not merely statistics, but are people, like 
my dad, who were needlessly killed or hurt in a truck crash.
    I thank you for the opportunity to testify before you 
today, and I am pleased to answer your questions.
    Mr. Bost. Thank you. I am going to start questioning now. I 
will do 5 minutes and then we will go to other Members, each 
will be given 5 minutes to question.
    Mr. Krapf, how many years have you been in the motor--bus 
business?
    Mr. Krapf. Fifty-one years.
    Mr. Bost. OK. I came from a trucking business myself. My 
grandfather started a trucking business in 1933, and I actually 
ran that business for 10 years. I loved it for 8. That being 
said, under the new rules and the--here is a real question that 
I am concerned about because of the uniqueness of your 
situation, is there adequate differences allowed for the 
operation of buses and the uniqueness of yours that has given 
away with the FMCS or for the Federal motor safety, do you 
think, like hours of service, as well as the difference between 
what you do and what a motor carrier would do that is actually 
an operating truck hauling freight, is there enough adequate--
--
    Mr. Krapf. Absolutely. There is a huge difference.
    Mr. Bost. There is a huge difference. And they keep up with 
that? I mean, the rules are correct, as far as you are 
concerned?
    Mr. Krapf. Well, I am not sure that they are all correct. I 
would have to look into detail. But first of all, our training 
programs are much more extensive than our counterpart in the 
trucking industry. For schoolbus drivers in the State of 
Pennsylvania, I don't know whether it is national or not, we 
provide 40 hours of training, classroom training, and then 
another 10 hours of bus training for them to get their license. 
Plus all the background checks that are required, there is like 
six or eight background checks that are required as well.
    Mr. Bost. And that is because of the children obviously.
    Mr. Krapf. Absolutely.
    Mr. Bost. Mr. VanMaanen--I am going to say it right--in 
your case, you are dealing with livestock. Right now, we are 
looking at a possible waiver, specifically, because once you 
pick that livestock up, you have got to move from point A to 
point B. Is it possible to meet the--we do what is best for the 
livestock, as well as do what is best to be--to make sure your 
drivers are safe.
    Mr. VanMaanen. I think there needs to be a little bit of 
flexibility involved in that. There is a lot of hauls that can 
be done within the time period of hours of service, but there 
is also some that extend past that. It would be problematic if 
we didn't have a grace period at the start or at the end, or 
some flexibility of a nap time during the haul that I would 
hate to see a truck get shut down within an hour's worth, or 
100 miles of their destination and those cattle would have to 
sit on that truck for 10 hours or offloaded when they are that 
close.
    Mr. Bost. And I want to ask also, now you deal with 
livestock and livestock only?
    Mr. VanMaanen. Well, that is correct. Mainly cattle, used 
to be in the hog-buying business, transported a lot of hogs 
also.
    Mr. Bost. Is there any variance that you can do under the 
electronic logging system? Are there variances that allow you 
to be flexible on going from point A to point B, or the amount 
of hours in service with the electronic system?
    Mr. VanMaanen. I don't think we would complain about the 
electronic system. We want to be compliant as long as it is 
built in to give us the flexibility we need to transport our 
product.
    Mr. Bost. But it doesn't do that now?
    Mr. VanMaanen. No, it does not, it does not do that now.
    Mr. Bost. Right. And that is the concern that we are having 
with the fact that----
    Mr. VanMaanen. That is correct. It doesn't have an exempt 
button or an ag exempt button that can be pushed or it can be, 
you know, recorded in that direction. So yes, it does not have 
that flexibility built in.
    Mr. Bost. And just a quick statement, because I know what 
is involved with drivers, I believe that our electronic 
logging, which is good, and I think that we can use it 
correctly, but without any ability, and excuse the expression, 
``common horse sense'' that can be used while driving down the 
road to make sure, for instance, we are not stopping in an 
unsafe place, because that can increase the amount of accidents 
by not being able to get to a rest area or a truck stop, and 
the dangers that exist for four-wheeled vehicles who don't have 
an hourly requirement to drive underneath the truck quite often 
is out there as well.
    So thank you. My time has about expired, so I will turn it 
over to Ms. Norton for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Krapf, I believe I just heard you say in answer to the 
chairman's question that there is schoolbus driver training?
    Mr. Krapf. Yes, ma'am, that is correct.
    Ms. Norton. Does that include behind-the-wheel training?
    Mr. Krapf. That does include behind-the-wheel training.
    Ms. Norton. May I compliment you on that, because that is 
what we have been trying to get for other kinds of training, 
particularly truck training.
    Mr. Krapf, you indicated in your testimony, you spoke of 
regulatory overreach in the FAST Act. I understand the FAST Act 
was a very bipartisan bill. And you spoke about it having a 
negative effect on investment, even employment in the schoolbus 
and motorcoach industry. And you said it did little to improve 
public safety--improve safety. But I would like to cite to you 
two recent examples that I find very troublesome with private 
schoolbus companies that have had what I think most would 
regard as preventable accidents, and they are very serious 
accidents.
    As we speak, right at this moment, the National 
Transportation Safety Board is meeting on recommendations 
stemming from two schoolbus accidents operated by private 
schoolbus operators. One killed 12 people, and 6 of them were 
children. And one of them, the investigators found that the 
schoolbus driver had a history of serious health issues, and 
that in the past 5 years, had been involved in at least 12 
crashes or incidents while operating a schoolbus or a personal 
vehicle. Now imagine somebody like that is driving a schoolbus.
    In the second accident, now being considered by the 
National Transportation Safety Board, the driver had a history 
of repeated complaints of speeding, aggressive driving, and at 
least one prior schoolbus accident. Now these two crashes, as 
you can see by what might have been taken by the authorities in 
advance, just didn't need to happen, so I am going to ask you, 
we don't know what the NTSB will be recommending, but I want to 
know if you will support whatever recommendations they may make 
for ending these kinds of deaths for children on schoolbuses?
    Mr. Krapf. You are asking if I would support that, whatever 
the----
    Ms. Norton. If they issue a recommendation aimed at 
preventing future deaths of school children on schoolbuses, 
would this be a recommendation you could support?
    Mr. Krapf. Yes, ma'am, it would.
    Ms. Norton. Thank you very much, Mr. Krapf. I know there 
are others--my colleagues may want to ask questions, so I won't 
proceed with my next question.
    Mr. Bost. Thank you. Congressman Barletta, you are up.
    Mr. Barletta. Thank you. Mr. Krapf, great to see you again. 
Thanks for being here. It is always--always enjoy having a 
fellow Pennsylvanian on the panel.
    In your testimony, you mentioned FMCSA improperly assigned 
a fatality to your publicly viewable record. While these 
records do not indicate fault, but rather account for your 
involvement, it sounds like this incident had a significant 
impact on your business. Could you help this committee 
understand the consequences of that fatality record?
    Mr. Krapf. I think there are so few fatalities in the 
busing industry, being 20 annually with 30-plus years of 
statistics in the motorcoach industry, and 5 in the schoolbus 
industry annually, again, over a 30-, or 35-year period, that 
any fatality on your record is a bad indication as you being a 
poor operator. So when the public, or your customers can go 
into your record and see that you have a fatality on your 
record, it is a big blemish, because there are so few of them 
in our industry.
    Mr. Barletta. Thank you. I want to switch gears here and 
talk about an issue that is very important to me, and that is, 
the safety of our students when they are riding the bus to and 
from school. I know this is a big priority for Krapf 
Transportation, and the rest of the schoolbus industry.
    Earlier this year, I asked Secretary Chao what the 
Department of Transportation could do to harden infrastructure 
at our Nation's schools to protect students. I think we need to 
include enhanced security measures for schoolbuses in that 
equation, I think we are leaving them out.
    Mr. Krapf, do you agree that schoolbuses need to be 
included in the conversations that we are having about school 
safety? And is there anything Congress can do to help you 
better protect our Nation's students?
    Mr. Krapf. As someone in this industry that transports over 
300,000 students per day, Congressman, that is my greatest 
fear. If we do everything in the school similar to our airports 
to protect the safety of our students in the schools, then they 
are--the terrorist or whoever that individual might be, are 
going to pick the next soft target, and that would be the 
schoolbus. And that is a huge fear of not only me, but everyone 
in the industry. Probably if I would have to guess, probably 
only 20 percent of our buses are behind gated fences. So how 
easily would it be it for someone to get into a bus overnight 
and put a bomb underneath the bus or something similar to that? 
So absolutely, it has to be an extension of the schoolday when 
transporting in the schoolbuses.
    Mr. Barletta. I agree. As we look at trying to keep bad 
people out of our schools, we can't forget where the kids go 
once they come out of school and they get on that bus. I 
believe we really need to start having this conversation, 
including transportation, as well as schoolbuses and making 
sure these kids--no parent should ever worry about their child 
once they leave their home. And you know, we are talking about 
a lot of stuff around here, but the best way to stop this is to 
not let it happen in the first place. I think we need to start 
expanding our conversation not only to the schools, but also 
try to think ahead of what the next soft target would be. I 
fear that myself, kids sitting on a schoolbus, so thank you. 
And I hope Congress will begin to heed the call of the American 
people and start looking at keeping these kids safe when they 
are in the school. We do a hell of a good job keeping ourselves 
safe.
    Thank you.
    Mr. Bost. I want to advise Members that they called votes, 
but we are going to try to get through, we have two other 
Members on the panel. Mr. Payne, you are recognized.
    Mr. Payne. Thank you, Mr. Chairman. This is really for 
anyone. Mr. Krapf, I was involved in schoolbus transportation 
prior to me going into public office. And you said you are 
responsible for 300,000 children on schoolbuses?
    Mr. Krapf. That is correct.
    Mr. Payne. I was going to mention my 10,000, but never 
mind.
    But in New Jersey last week, a schoolbus was hit by a 
truck, killing 1 teacher and 1 student, injuring 43 others. And 
you know, I understand schoolbuses are subjected to rigorous 
safety regulations at both the State and Federal levels. But 
most of these regulations are designed to make schoolbuses 
safer for travel on local roads, not for interstate, highway 
accidents like last week's. The NTSB has recommended requiring 
seatbelts on schoolbuses, but as of last week, only six States 
require them. This seems like an area really ripe for Federal 
involvement. What are your thoughts, sir? And I would like 
everyone to weigh in, please.
    Mr. Krapf. First of all, my heart goes out to the families 
involved in the accident last week. It was a very unfortunate 
circumstance. All the details are not actually available to the 
public yet, so I can't speak to that. But as an industry, we 
are not opposed to seatbelts on schoolbuses. However, we do 
believe that the seatbelt law should be regulated by each 
individual State so that where the funding is--the funding for 
the schools comes from the State, and any seatbelt regulation 
we would not, as an industry, want it to be an unfunded 
mandate. So we think it should be regulated by the State.
    In addition to that, as an operator of schoolbuses, since 
it is the safest ground transportation that we know of in this 
country, we want as many of the students on the buses as 
possible because it is the safest mode. One of the statistics I 
read a few years ago, there is like 850, or 860 students killed 
going to and from school each day by various other means, 
whether it is bike, walk, their parents' car, their own car, 
whereas if they are on schoolbuses there are only 5. So, you 
know, we are cognizant of that law is going to create 
additional expense to the schoolbus industry, and we want to 
make sure that that expense doesn't preclude the safety of our 
buses.
    Mr. Payne. Thank you. Sir?
    Mr. VanMaanen. I am not an expert on transporting students. 
I have served on our local school board and we owned and 
operated our own business. And I was aware of the statistic 
that the safest mode of transportation for students is on the 
schoolbus versus any other way of getting them to and from 
school, so I commend all schoolbus operators for that.
    Mr. Payne. Sir.
    Mr. Turner. Thank you for the question. We would first 
agree that schoolbus transportation is incredibly safe, as is 
the bus industry as a whole, and congratulate them for their 
efforts in the safe transportation of children. We would say 
that each crash, especially in a schoolbus where a risk is 
heightened, is tragic. And we would support the safety measures 
as long as they were reliable and they are proven as NTSB's 
recommendations usually are.
    Mr. Payne. Thank you.
    Ms. Tierney. The Truck Safety Coalition represents 
thousands and thousands of victims and survivors of truck 
crashes all over the country. So every life is precious, and 
nobody knows that more than we do, so we would certainly 
support seatbelts in buses and any other available technology 
that would save lives, all lives are precious.
    Mr. Payne. OK. Thank you for your testimony here today. We 
really appreciate you coming in and giving your perspective on 
these issues. And with that, Mr. Chairman, I will yield back.
    Mr. Bost. Thank you. Mr. Cohen you are recognized for 5 
minutes.
    Mr. Cohen. Thank you, sir. Appreciate you putting together 
this panel, Chairman Graves and all, and all the witnesses who 
testified here.
    In 2014, my constituents who are present, Randy and Laurie 
Higgenbotham, lost their 33-year-old son, Michael, like 
thousands of others unfortunately have, to the harrowing 
tragedy that is truck underride: the circumstance wherein all 
the passengers' safety mechanisms placed in passenger vehicles 
are effectively rendered null with striking the rear side or 
front of a semitruck tractor-trailer.
    Ms. Tierney, I appreciated your testimony because you 
testified that you have lost a particular family member to this 
particular painful type of tragedy. In 2016, truck crash 
fatalities totaled 4,317, a 28-percent increase since 2009. 
That same year, the number of truck crashes totaled 475,000, 
resulting in 145,000 injuries. Of those injuries, we know some 
of the most debilitating injuries resulting from truck 
underride crashes. What can we do to address this problem, 
especially, should every Member of this Congress support the 
bill that is just bipartisan in the Senate that has been 
introduced to mandate the placement of truck underrides?
    Yes, ma'am.
    Ms. Tierney. We absolutely should pass comprehensive 
underride protection that would strengthen the rear guard 
standard that we currently have. It would require a side 
underride guard, and it would study certainly front underride 
guards, and the maintenance of all those guards that is 
lifesaving technology. Absolutely.
    Mr. Cohen. Based on your time advocating for truck 
underride, do you think there is any chance the industry would 
voluntarily self-regulate for the sake of safety in this 
matter?
    Ms. Tierney. While some in the industry have, and for them, 
we are very grateful for that but others have not and probably 
would not. Therefore, I do believe that a mandate is needed to 
make sure that the entire industry is doing the safest thing to 
prevent these catastrophic crashes.
    My dad was killed when Michael Higgenbotham was a baby, so 
this is a problem that has being going on for decades and 
decades so I do believe a mandate is needed.
    Mr. Cohen. Well, I found from my sponsorship and responses 
I got from a whole lot of folks from the trucking industry has 
been negative, and harrowing, and that the safety of a 
potential victim is not of a concern, or something that they 
think is fiscally within their possibilities.
    In 2002, a report was issued by the Technology & 
Maintenance Council of the American Trucking Associations, 
entitled ``A Brief Look at the Far Horizon.'' This is 16 years 
ago, an exploration of what is to come for trucking. It 
predicted, even anticipated, regulations on the front and side 
underride.
    Mr. Chairman, I ask unanimous consent to enter into the 
record this particular paper.
    Mr. Bost. Without objection.

        [The report entitled ``A Brief Look at the Far Horizon: An 
        Exploration of What's to Come for Trucking'' is on pages 135-
        158.]

    Mr. Cohen. Thank you, sir.
    As far as back as 2002, industry was already predicting 
regulations be promulgated on rear side and front underride. In 
the report, the American Trucking Associations predicted the 
underride regulations for straight trucks will come as early as 
2005. The report shows that industry even predicted a front and 
side underride regulation be issued as early as 2006. What 
other reason would the trucking industry have had as far back 
as 2002 to be issuing predictive reports about future 
regulation on truck underrides, if not for the fact they knew 
people were dying and that lawmakers would take notice?
    Ms. Tierney, what evidence is there that side underrides, 
front underrides, and stronger rear underride guards can 
increase the likelihood of preventing passenger compartment 
intrusion and ultimately fatalities from car and truck 
collisions?
    Ms. Tierney. I saw it, and I saw it with my own eyes. I 
witnessed the rear underride and side underride crash test at 
IIHS [Insurance Institute for Highway Safety]. It was one of 
the most profound things I have ever witnessed in my life. 
Those crash tests were successful in both cases, and they 
prevented passenger compartment intrusion. They took a crash 
that most likely would have been deadly or catastrophic, and 
turned it to an injury where a driver would have walked away. 
So they absolutely do save lives. And this is an issue that is 
so long needed and so heartbreaking to people that continue to 
lose their loved ones in this way. My dad died of massive head 
injuries, and Jayne Mansfield was probably the most well-known 
underride crash in this country.
    Mr. Cohen. Thank you, Ms. Tierney. I have to admit. I 
remember when Jayne Mansfield died, and that was like--I 
remember, I think it was the 1960s, it was that far back. And 
my staff cautioned me not to mention her name, since you have, 
I think I can do it. That means that issue is that far back, 
over 50 years ago, people have died for that reason, and it 
should have come to the attention, and safety should have been 
a concern.
    Mr. Chairman, I would also like to enter into the record a 
2007 report issued by Transportation Research Board of the 
National Academies, entitled ``The Domain of Truck and Bus 
Safety Research'' into the record.
    Mr. Bost. Without objection.

        [The 151-page report entitled ``The Domain of Truck and Bus 
        Safety Research'' can be found at the Transportation Research 
        Board's website at http://onlinepubs.trb.org/onlinepubs/
        circulars/ec117.pdf.]

    Mr. Cohen. Thank you, Mr. Chair.
    In this 2007 report, a study conducted by the University of 
Michigan Transportation Research Institute, noted that both 
front underrides caused particularly fatal results and the 
properly undesigned front underrides could reduce fatalities by 
27 to 37 percent. My heart goes out to all the families who 
have been affected by these tragic collisions, Marianne Karth, 
Lois Durso, Ms. Tierney, and especially Randy and Laurie 
Higgenbotham, whose son, Michael, our constituent, was killed 
in a truck underride crash in the Memphis area.
    There are times when we are called upon to simply do the 
right thing. I hope any colleagues will consider the Stop 
Underrides Act and help end needless preventable deaths. It is 
our constitutional duty to keep the American people safe and 
taking any action to prevent these deaths is the right thing to 
do.
    I yield back the remainder of my time. Thank you, sir.
    Mr. Bost. Thank you. And seeing no others seeking 
recognition, I would like to thank each of the witnesses for 
their testimony today. I ask unanimous consent that the record 
for today's hearing remain open until such time as our 
witnesses have provided answers to any questions that may be 
submitted to them in writing, and unanimous consent that the 
record remain open for 15 days for additional comments and 
information submitted by Members, or witnesses, to be included 
in the record of today's hearing.
    Without objection so ordered. If no other Member has 
anything to add, this subcommittee stands adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                            [all]
    
                                    
</pre></body></html>
